<html>
<title> - REVIEW OF THE PRESIDENT'S CLIMATE ACTION PLAN</title>
<body><pre>[Senate Hearing 113-743]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-743
 
                       REVIEW OF THE PRESIDENT'S
                          CLIMATE ACTION PLAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 16, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
  97-581 PDF                 WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                              
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
CORY A. BOOKER, New Jersey

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 16, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     4
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........     7
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    16
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    16
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey..    19
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    21
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    22
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    24
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    25
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...    27

                               WITNESSES

McCarthy, Hon. Regina, Administrator, U.S. Environmental 
  Protection Agency..............................................    28
    Prepared statement...........................................    30
    Responses to additional questions from:
        Senator Boxer............................................    38
        Senator Carper...........................................    41
        Senator Vitter...........................................    44
        Senator Inhofe...........................................    52
    Response to an additional question from Senator Barrasso.....    53
    Responses to additional questions from:
        Senator Sessions.........................................    54
        Senator Crapo............................................    58
        Senator Fischer..........................................    59
Ashe, Hon. Daniel M., Director, U.S. Fish and Wildlife Service...    62
    Prepared statement...........................................    64
    Responses to additional questions from:
        Senator Boxer............................................    71
        Senator Vitter...........................................    73
    Response to an additional question from Senator Inhofe.......    77
    Responses to additional questions from Senator Sessions......    78
Sutley, Hon. Nancy H., Chair, Council on Environmental Quality...    80
    Prepared statement...........................................    82
Tangherlini, Hon. Dan, Administrator, U.S. General Services 
  Administration.................................................    88
    Prepared statement...........................................    90
Ritter, Hon. Bill, Jr., Director, Center for the New Energy 
  Economy, Colorado State University.............................   119
    Prepared statement...........................................   122
    Responses to additional questions from:
        Senator Boxer............................................   132
        Senator Sessions.........................................   136
Dessler, Andrew E., Ph.D., Professor of Atmospheric Sciences, 
  Texas A&M University...........................................   138
    Prepared statement...........................................   140
Lashof, Daniel A., Ph.D., Director, Climate and Clean Air 
  Program, Natural Resources Defense Council.....................   153
    Prepared statement...........................................   155
Curry, Judith A., Ph.D., Professor and Chair, School of Earth and 
  Atmospheric Sciences, Georgia Institute of Technology..........   169
    Prepared statement...........................................   171
    Responses to additional questions from Senator Sessions......   185
White, Kathleen Hartnett, Distinguished Senior Fellow-in-
  Residence and Director, Armstrong Center for Energy and the 
  Environment, Texas Public Policy Foundation....................   186
    Prepared statement...........................................   188
    Responses to additional questions from Senator Sessions......   200

                          ADDITIONAL MATERIAL
                           Letters and E-mail

November 15, 2013, letter to Gina McCarthy, EPA, from 
  Representative Upton et al.....................................   215
December 19, 2013, letter to Gina McCarthy, EPA, from 
  Representative Lamar Smith et al...............................   217
December 2013 draft letter to Regina A. McCarthy, EPA, from the 
  Center for Regulatory Effectiveness............................   222
November 19, 2013, e-mail exchange between Nathan J. Frey, Office 
  of Management and Budget, and Robert Wayland, Environmental 
  Protection Agency..............................................   236

                      Statements and News Releases

December 17, 2013, National Oceanic and Atmospheric 
  Administration Arctic Report Card: Update for 2013.............   238
January 16, 2014, statement by the Center for Regulatory 
  Solutions......................................................   241
October 29, 2013, statement of the Energy and Environment 
  Initiative, Rice University....................................   246
June 25, 2012, statement of the San Miguel Electric Cooperative, 
  Inc............................................................   251
January 13, 2014, SNL Energy Daily Coal Report...................   260
October 8, 2013, statement of the University of Texas at Austin, 
  Climate Systems Science........................................   272
September 17, 2013, U.S. Census Bureau highlights on poverty.....   274
February 27, 2009, U.S. Bureau of Economic Analysis news release, 
  Gross Domestic Product: Fourth Quarter 2008 (Preliminary)......   275
December 20, 2013, U.S. Bureau of Economic Analysis news release, 
  National Income and Product Accounts, Gross Domestic Product, 
  3rd quarter 2013 (third estimate); Corporate Profits, 3rd 
  quarter 2013 (revised estimate)................................   277
Element VI Consulting, EPA and the CCS Oops......................   280
January 21, 2014, National Bureau of Economic Research, Social 
  Security and Elderly Poverty...................................   282

                          Articles and Reports

AGU Publications, National Center for Atmospheric Research (Kevin 
  E. Trenberth and John T. Fasullo), An apparent hiatus in global 
  warming?.......................................................   284
September 13, 2013, Congressional Research Service (Jane A. 
  Leggett et al.), Federal Climate Change Funding from FY2008 to 
  FY2014.........................................................   298
January 2009, Harvard University, John F. Kennedy School of 
  Government (Craig A. Hart), Advancing Carbon Sequestration 
  Research in an Uncertain Legal and Regulatory Environment......   318
January 2, 2014, Nature (Steven C. Sherwood et al.), Spread in 
  model climate sensitivity traced to atmospheric convective 
  mixing.........................................................   364
January 9, 2014, Politico Pro (Erica Martinson), Challenge to EPA 
  power plant rule surprised administration......................   378
January 2, 2013, Salon (Jillian Rayfield), Koch brothers donated 
  big to ALEC, Heartland Institute...............................   380
August 2013, Federal Climate Change Expenditures Report to 
  Congress.......................................................   382

                             Miscellaneous

Complaint for Declaratory and Injunctive Relief, State of 
  Nebraska, Plaintiff, v. United States Environmental Protection 
  Agency; and Gina McCarthy, Administrator, U.S. EPA, Defendants.   430
2011 tax information from the Charles Koch Foundation............   439
Biography of John Christy, Director, Earth System Science Center, 
  University of Alabama--Huntsville..............................   515


                       REVIEW OF THE PRESIDENT'S 
                          CLIMATE ACTION PLAN

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:15 a.m. in room 
406, Dirksen Senate Building, Hon. Barbara Boxer (chairman of 
the committee) presiding.
    Present: Senators Boxer, Vitter, Cardin, Whitehouse, 
Merkley, Booker, Carper, Inhofe, Crapo, Barrasso, Sessions, 
Fischer, Boozman, and Wicker.
    Senator Boxer. Good morning, everybody. And I would ask the 
panel to take their seats, and I would ask the good Senator 
Udall to sit there at the end and he is going to introduce us 
to a member of the second panel. But knowing his schedule, we 
said we would allow him to go first.
    We also want to note that Senator Inhofe, one of the great 
members of this committee, has to run to be a ranking member in 
his Armed Services Committee. So he is going to leave, preserve 
his early bird status and come back.
    Senator Inhofe. I will.
    Senator Boxer. So before we even do our opening statements, 
Senator Udall, we want you to be able to go to your next 
appointment. Please, go right ahead.
    Senator Udall. Thank you, Senator Boxer. Good morning to 
the committee. Thank you, Senator Vitter. I appreciate an 
opportunity to introduce a member of your second panel, but a 
man who looms large in our great State of Colorado, and that is 
former Governor Bill Ritter. He helped our State become a 
national leader in the new energy economy, and in our fight to 
combat global warming. He was our Governor from 2007, Senator 
Boxer, to 2011. He found really creative ways to grow a 
bipartisan consensus around the need for our State to develop 
job creating clean energy while also safeguarding our land and 
our air, our water, the features that make the Centennial 
State, look, I am going to be immodest here, we are the envy of 
the world.
    [Laughter.]
    Senator Udall. He was raised on a farm, he brought that 
rural perspective to discussions about crafting an effective 
State policy of energy development.
    Many of you have heard me talk about our strong renewable 
electricity standard. It is second only to the great State of 
California's. I helped lead that effort in 2004. We started out 
with a 10 percent requirement. We very quickly met that 
requirement, and then Governor Ritter came along and he built 
on that accomplishment and he led the effort, Senator Boxer, to 
whereby now we are going to triple the State's use of renewable 
energy to 30 percent by 2020.
    Along the way he created the Governor's energy office, 
which was the first cabinet level office devoted to improving 
the effective use of Colorado's vast energy resources. He also 
signed Colorado's Clean Air-Clean Jobs Act, which moved us in 
the utility front from burning of coal in our front range power 
plants to the use of clean-burning natural gas. We reduced 
carbon emissions, we cleaned up our air, we created jobs. And 
that natural gas, it may have been from Colorado, Senator 
Inhofe isn't here, it may have been from Oklahoma, it may have 
been from Louisiana, Senator Vitter's State. So we are truly an 
all of the above energy State. We are now one of the leading 
States, because of Governor Ritter's great work in terms of the 
jobs created and total money invested in our growing clean 
energy economy.
    Since we are here today to talk about climate action plans, 
I want to add that Governor Ritter issued Colorado's first 
climate action plan in 2007. It was a bold proposal, it called 
for a 20 percent reduction in greenhouse gas emissions by 2020, 
and an 80 percent reduction by 2050.
    So what has Governor Ritter been doing since he left office 
in 2011? Well, he went up to CSU, our land grant college, 
Colorado State University, he created the Center for New Energy 
Economy at CSU. The Center promotes the growth of clean energy 
by working through, with leaders in government and the private 
sector, their pursuing business friendly policies that create 
jobs and promote investment in the clean tech economy. And the 
Center does this all the while through maintaining a commitment 
to the University's original land grant service mission, to 
benefit the people of Colorado.
    The Center is expanding the innovative and entrepreneurial 
approach to clean energy research. Colorado State has long been 
known for that. It will play an integral role in bringing 
alternative energy solutions to the marketplace.
    And I just want to end on this note, Chairman Boxer, and 
Ranking Member Vitter, I am really pleased, I know Senator 
Bennet is really pleased that you saw fit to invite the 
Governor here today. He has a lot to share with you. It is 
thanks to efforts like Governor Ritter's that I can say with 
confidence and pride that Colorado has a balanced approach to 
energy that is truly a model for our Nation. So I know you will 
enjoy hearing form Governor Ritter, and I know he looks forward 
to engaging in a back and forth with the committee. Again, 
thank you for inviting him, and I appreciate the time of the 
committee.
    Senator Boxer. Thank you so much.
    So we will go the 5-minute rule now.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Today's hearing will cover three topics. 
First, the President's climate action plan, which is a critical 
issue. We have four agencies here today to address it. Senator 
Vitter and minority members of this committees stated in their 
December 2013 year-end report, Vitter and the EPW Republicans 
will continue pushing for an oversight hearing on the 
Administration's climate agenda that includes witnesses from 
Federal agencies.
    Second, today's hearing will include the budget for the 
EPA, and third, we have set aside time for members of this 
committee to ask about John Beale, an outrageous con man who 
was finally caught and convicted. We held a briefing on this on 
September 30th. All members were invited. I asked many 
questions and Senator Vitter asked over 50 questions. However, 
Senator Vitter has more questions, so we are covering that 
subject, too.
    The broad scope of this hearing was formally agreed to by 
ranking members.
    The Wall Street Journal said in its editorial today that I 
am living in an EPA fairy tale for commending EPA Administrator 
McCarthy for shining a light on the actions of a rogue 
employee. Well, that is what Patrick Sullivan said, the 
Assistant Inspector General, when he said about Ms. McCarthy's 
role, ``To our knowledge, the first senior person to express 
concerns was Ms. McCarthy.'' So I stand by what I said.
    Now let me turn to the President's climate action. In his 
plan released on June 2013, President Obama called for action 
to fight climate change, so we don't condemn future generations 
to a planet that is beyond repair. I couldn't agree more, 
because climate change is a catastrophe that is unfolding 
before our very eyes. The President's plan lays out a road map 
for action. It calls for a wide range of reasonable steps to 
reduce carbon pollution, grow the economy through clean energy, 
prepare for future impacts, such as rising sea levels and storm 
surges, and lead global efforts to fight climate change.
    When the President announced his climate change plan, many 
companies issued statements of support, including Wal-Mart, 
Honeywell, DuPont, Dominion Resources, American Electric Power 
and other business leaders. More than 500 companies, such as 
GM, Nike, Mars, Nestle, Unilever have stated that tackling 
climate change is one of America's greatest economic 
opportunities in the 21st century.
    In addition to many of the Nation's largest companies, the 
American people have waited on the need to address this growing 
threat, and they want action now. A USA Today poll in December 
found that 81 percent of Americans think climate change will be 
a serious problem if nothing is done to reduce it. And 75 
percent of Americans say that the U.S. should take action on 
climate change, even if other nations do less. That poll also 
found that Americans overwhelmingly support clean energy 
solutions like generating electricity from solar or wind.
    And here is the thing about the American people. They all 
say this, not just Democrats, not just Republicans, not just 
Independents. The only place that we have a partisan divide is 
right here in the Congress.
    Well, I am encouraged that significant action to address 
climate change is already underway, including establishing 
limits on carbon pollution from cars and trucks. The Obama 
administration is also working on carbon pollution limits for 
new and existing power plants. Together these efforts address 
the Nation's two largest sources of carbon pollution.
    Now, a new peer-reviewed study in the journal Nature finds 
that unless we control carbon pollution, the most severe 
predictions by scientists and climate experts on rising 
temperatures will occur by the end of the century, resulting in 
the most significant and dangerous impacts from climate change, 
an increase of more than 7 degrees Fahrenheit by 2100.
    In my home State of California, scientists have been 
telling us for years what would happen, for years. And they are 
right on target. Years ago, they said, there will be 
substantially higher temperatures, droughts, floods, extreme 
weather, extreme wildfires and rising sea levels. And it is 
happening. Future generations are going to look back to this 
moment and judge each of us, each of us, by whether we start to 
act on this issue.
    So I look forward to hearing from today's witnesses who are 
leading their agencies' efforts to reduce carbon pollution. I 
will pledge to you that I will use every tool at my disposal to 
ensure that you work will be done. The reason is, it is a moral 
obligation, it is good for the economy and it is good for human 
health.
    Thank you very much, and I would ask my ranking member to 
address us at this time.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer, for calling 
today's hearing on the President's climate action plan. It is 
long overdue, quite frankly. In 2013, the committee failed to 
hold an EPA budget hearing and held only one climate hearing, 
which had excluded all Federal Government witnesses. Today's 
one hearing comes 7 months after the announcement of the 
biggest regulatory avalanche in U.S. history, the President's 
climate action plan. And this avalanche of regulatory actions 
will begin in 2014, and I believe will further frustrate our 
already struggling economy. Only a fraction of the jobs 
economists had hoped for were created in December.
    Last June, when President Obama announced his climate 
action plan, it was clear to me that he didn't want his 
supporters to engage in straight economic arguments over 
promise on the impacts taking action will have or debate the 
validity of the claim that the science is already settled. In 
fact, there were White House talking points to that effect. 
However, these are topics that must be discussed.
    While the current EPA Administrator argues that the 
President's climate action plan is part of an overall strategy 
positioning the U.S. for leadership in international 
discussions, her predecessor clearly argued that such action 
would have no impact without international participation first. 
For the purposes of facilitating international buy-in, the 
Administration is moving forward with a domestic agenda that 
will clearly damage our ability to utilize our abundant energy 
resources and to support the growth of manufacturing jobs.
    I am afraid these policies just show the international 
community three things: how to undermine chances of economic 
recovery and growth, how to achieve the lowest work force 
participation rate since the Carter administration, and how to 
increase energy prices by denying the ability to utilize all 
energy resources. While these policies were squarely rejected 
by Congress in 2009, since then the President has simply sought 
to legislate them through administrative fiat.
    President Obama promised his Administration would be the 
most transparent in history. However, his record, including 
here, reflects a determined effort to do the opposite. I think 
the social cost of carbon is a perfect example on point. Since 
last June, a number of my Republican colleagues joined me in 
asking the Administration to provide details on those social 
costs of carbon estimates which were developed in a black box 
and are used regulatory by multiple Federal agencies to justify 
costly regulations.
    The first confirmation of even participation in these 
closed door meetings was acknowledged at a November EPW hearing 
by EPA's Director of Atmospheric Programs. She committed to 
providing further detailed information to the committee in 
November, and we got a short, terse, very superficial response 
to our detailed question this morning. I think that says it 
all.
    Afterwards, the Administration gave in to pressure from 
Congress and the public and announced that the estimates would 
be noticed in the Federal Register and open to comment. Yet 
they are still being utilized in many ways across the Federal 
Government in rulemakings.
    While the President's climate action plan includes a role 
for almost every Federal entity, the EPA is clearly at the 
core. I am very concerned that the EPA waited over 3 months to 
publish a second try at proposed greenhouse gas new source 
performance standards for power plants. I am even more 
concerned that I believe these roles are still contrary to 
Federal law. I think the EPA's delay is designed to postpone 
controversial news during an election year and give the EPA 
more time to make excuses about why they are taking action 
beyond the scope of their legal authority.
    So in summary, I continue to be really concerned that the 
President's climate action plan has deeply flawed legal 
justifications and perceived theoretical benefits. I believe it 
undermines our economic recovery, threatens to keep off limits 
our energy abundance and manufacturing renaissance, 
exponentially increases Federal bureaucracy and red tape and 
most tragically, hurts those who can least afford it.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. First, Madam Chair, thank you very much for 
your extraordinary leadership on these issues during very 
challenging times. I thank you for holding fast on science, 
because the science is clear. Atmospheric science 101 teaches 
us that carbon-based gases in the atmosphere are what keep the 
planet warm and habitable by trapping heat around the planet. 
Earth's plants and oceans naturally help regulate and balance 
the level of carbon in the atmosphere by absorbing carbon. 
Since the industrial revolution, levels of carbon in the 
atmosphere have been steadily increasing, and the reduction of 
forest acres around the world have compounded these increases 
in carbon pollution emissions by reducing nature's carbon 
sequestration capacity. Therefore, increased levels of carbon 
gases in the atmosphere have led to more heat being trapped, 
which is changing the earth's climate.
    We are accelerating by human activities the carbon 
emissions. It is having a catastrophic impact, and we have to 
do something about it. These are scientific facts. There isn't 
any debate in the scientific community on these facts. Neither 
is any debate among political leaders in any other developed 
nor many developing countries. Because unlike in the U.S. 
Congress, facts on climate change are accepted.
    I urge my colleagues to think about how future generations 
will look back upon our political squabbling and inaction to 
legislate meaningful policies to curb carbon pollution and 
authorize action to adapt to our world's changing climate. 
After all, it will be our grandchildren and their children, not 
us, living in the world we leave them.
    The effects of climate change can be seen around the world, 
across the United States and in my home State of Maryland. 
Scientists monitoring migrating patterns of fish and birds are 
seeing changes in these patterns as meteorological seasons are 
changing. In some instances, the changes in certain wildlife 
species, particularly cold weather and cold water adaptive 
species like trout and salmon, are shrinking, while the ranges 
of pest species like bark beetles are expanding due to milder 
winters. Changing water temperatures in the Chesapeake Bay will 
have an impact on our blue crabs and oyster populations, which 
will threaten the livelihood of Maryland's watermen, who make 
their livelihood off the seafood of the Bay.
    Climate change is also directly affecting human population 
around the globe. This raises concerns about climate refugees, 
who have lost their communities to sea level rise and other 
catastrophic weather events in the decades to come. In my own 
State of Maryland, I can point to the people who live on Smith 
Island, as they see their island being consumed by sea level 
rise.
    While I am disappointed that the politics of Washington 
prevents Congress from enacting legislation to address both the 
causes and effects of climate change, our Nation is very 
fortunate to have an Administration that is able to rise above 
the squabbles in Congress to take bold action to curb 
greenhouse gas emissions, promote more responsible and 
efficient energy consumption, grow our Nation's renewable 
energy sources and take critical steps to adapt to the effects 
of climate change. EPA has reduced U.S. vehicle fleet emissions 
through improved CAFE standards by setting ambitious yet 
achievable goals for fuel efficiency. The President's 
announcement in 2011 to raise CAFE standards to 54.5 miles per 
gallon by 2025 in sum are the world's most ambitious fuel 
economy standards in the world. These targets demonstrate how 
EPA and the industry can work together to achieve what is 
necessary to protect public health and the environment.
    And I might point out, this is going to help our economy. 
Efficiencies of energy creates jobs, clean energy creates jobs.
    President Obama's EPA has also taken bold and a necessary 
step toward regulating carbon pollution from our Nation's power 
sector by using existing authority under the Clean Air Act to 
propose the first limits of carbon emissions for the U.S. power 
generator sector. All of this is helping. The Obama 
administration has executed successful programs that are 
generating clean energy and American jobs, reducing our 
reliance on foreign oil, bolstering our national security and 
international competitiveness and protecting health and the 
environment.
    We should help. Instead, what we see, particularly coming 
over from the House of Representatives, are proposals that 
would block this progress. Fortunately, we have stopped that in 
the Senate. But we should adopt an energy policy that will help 
this Nation not only become energy independent for our national 
security and not only help our economy grow but also help our 
environmental future.
    Senator Boxer. Thank you very much, Senator.
    Senator Crapo.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Madam Chairman, for holding this 
important hearing on the President's climate action plan.
    I share many of the concerns outlined by my colleagues on 
this panel and welcome this opportunity to hear from the 
Federal officials assembled on the first panel who have and 
will continue to generate the President's core policies on 
climate change. Many of my concerns with the President's 
current action plans stem from issues that we have wrestled 
with in this Administration in the past.
    For instance, the Environmental Protection Agency has 
without providing for public comment or peer review adjusted 
upwards the social cost of carbon to modify the accounting for 
benefits claims from regulatory actions. Moreover, proposed 
regulations of greenhouses gases from new and existing sources 
are likely to cripple numerous large scale manufacturing and 
energy projects across the Nation, creating an environment in 
which foreign countries will become far more attractive for 
future investment, potentially undermining our economy again.
    In another instance, the Treasury Department obstructed 
multiple transparency requests for more than 9 months regarding 
internal work on the development of a carbon tax, as well as 
sources of funding for international climate commitments that 
were negotiated behind closed doors.
    We can all agree that affordable energy is a critical 
component of having a healthy and robust economy in the United 
States. And we are fortunate to have tremendous energy 
resources here at home. As such, I am concerned that the 
Administration's proposals threaten to undermine an important 
sector of our economy and the industries and jobs it supports 
in the name of modest environmental gains. In reviewing the 
testimony provided by members of President Obama's 
Administration today, I am concerned that the views of those 
most likely to be negatively impacted by the new EPA 
regulations have not been appropriately considered.
    Protecting and improving our natural environment is a goal 
shared by many. But there is strong disagreement about how to 
achieve these goals. In general, the best policies for 
addressing climate change are grounded in three basic 
principles: sound peer-reviewed science, protection of our 
quality of life; and policies that promise the greatest benefit 
to both the environment and the people without harming our 
economy.
    The recent climate change proposals issued by President 
Obama, however, will have severe economic consequences and will 
likely yield immeasurable environmental benefits if fully 
implemented. Further, they would undermine the utilization of 
our own traditional affordable sources of energy and increase 
the cost of electricity for consumers. Rather, we must utilize 
an all of the above approach which should include a robust 
expansion of nuclear energy production, hydroelectric power and 
other promising renewable and emissions reducing technologies. 
By expanding and diversifying our energy portfolio, we can 
reduce risks to the environment, promote a strong domestic 
energy sector and increase our energy security.
    I support legislative solutions that preserve and enhance 
our natural environment. However, I am deeply concerned that 
unilateral EPA regulation of greenhouse gas emissions is 
already imposing major burdens on our economy without resulting 
in commensurate environmental benefits. I agree on the need for 
continued research in the field of climate science in order to 
gain the necessary knowledge needed to implement effective 
policies. The issue is fraught with significant social, 
environmental and economic consequences, and it is essential 
that we get it right.
    As such, I look forward to hearing from our witnesses 
today, particularly Dr. Judith Curry, and her work at the 
Georgia Institute of Technology.
    Again, thank you, Madam Chairman, for holding this hearing. 
I look forward to hearing from our witnesses.
    Senator Boxer. Thank you so much, Senator.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Madam Chair.
    Let me just briefly welcome our witnesses to this chamber, 
one in which reality is so often suspended, one in which 
science is so often twisted and mocked and one in which the 
power of special interests to manipulate American democracy is 
often so nakedly revealed.
    My belief is that the propaganda machine behind the climate 
denial effort will go down in history as one of our great 
American scandals, like Teapot Dome or Credit Mobilier or 
Watergate, for that matter.
    Most Americans see through it. Major American 
organizations, everything from Coke and Pepsi to Ford and GM to 
Wal-Mart and Nike and Apple, you can go on and on through the 
corporate community, outside the corporate community you can go 
from the Joint Chiefs of Staff to the U.S. Conference of 
Catholic Bishops to the Garden Clubs of America, over and over 
again, organization after organization accepts the science, 
accepts the reality. And frankly, farmers and fishermen are 
starting to see it happen on their farms and in their fishing 
grounds in their reality. Ask the ski mountains of Utah.
    So I simply urge you all while you are here to keep the 
faith. Keep faith with reality. Keep faith with truth, keep 
faith with science. Armor yourselves against the slings and 
arrows of the deniers and the polluters machine and do our 
duty. I ask this particularly on behalf of my home State, Rhode 
Island, which is a coastal State, which is at the front line of 
the undeniable effects of climate change. Our sea levels are 
rising. It is not complicated. You measure that with a 
yardstick, more or less. Our oceans are warming. Not 
complicated. You measure that with thermometers.
    And we know that our oceans are getting more acidic. 
Everybody with an aquarium can take a litmus test. This is not 
complicated. And it is affecting our people.
    So bear that in mind, do our duty and thank you. I ask that 
the remainder of my statement be put into the record.
    [The referenced statement was not received at time of 
print.]
    Senator Boxer. Without objection, it will be done.
    Senator Sessions, you are next followed by Senator 
Barrasso. That is the list we have, but it is up to both of 
you.
    Senator Sessions. Senator Barrasso was here before I came.
    Senator Boxer. Then absolutely, Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Madam Chairman, last week was the 50th anniversary of the 
war on poverty. The war began when President Lyndon Johnson 
visited with Tom Fletcher and his family on the front porch in 
Martin County, Kentucky. NPR did a story on this recently and 
said at the time, the poverty rate in this coal mining area was 
more than 60 percent. Johnson visited the Fletchers on the 
porch of their home, a small wooden structure with fake brick 
siding. This is from the NPR story. The study went on to say 
that photographers took what would become one of the iconic 
images of the war on poverty. The President crouched down, 
chatting with Tom Fletcher about the lack of jobs.
    Flash forward to today, according to the Department of 
Agriculture, the latest numbers for 2011, 38.6 percent of the 
population of Martin County is in poverty. NPR stated that this 
is twice the national average. In addition, 47 percent of 
children in that county are in poverty. NPR went on to say 
today, many people here rely on government aid. In fact, it is 
the largest source of income in the county. They say people say 
it has helped to reduce hunger, improve health care and given 
young families a boost, especially at a time, NPR said, when 
coal mining jobs, let me repeat, when coal mining jobs are 
disappearing by the hundreds.
    Now, this is National Public Radio, not known as a 
conservative outfit that champions coal. Those are the ones 
saying that.
    The actions of this Administration's EPA to wipe out coal 
and eventually natural gas is costing thousands of jobs, and it 
is driving up energy costs for many of the most vulnerable 
people in this country. I can only conclude that this EPA is on 
the wrong side of the war on poverty. In fact, this EPA is the 
tip of the spear that is spending energy producing communities 
like Martin County, Kentucky, like Campbell County in my home 
State of Wyoming, Marshall County in West Virginia, Belmont 
County in Ohio back to the very days before Lyndon Johnson's 
original declaration.
    When you wipe out the jobs in these communities and you 
drive up electricity costs, you create poverty, period. Folks 
back in those counties wonder why the EPA is making these 
decisions that deliberately hurt them. The Associated Press 
shed some light on this with an article written January 10th of 
this year, just 6 days ago. The article demonstrates that the 
EPA has been colluding with the Sierra Club and their Beyond 
Coal campaign to deliberately draft a rule that will prevent 
new coal-fired power plants from being built. According to the 
Associated Press article, e-mails between the Sierra Club and 
the EPA produced through a Freedom of Information Act lawsuit 
show the green group and senior officials of the Nation's top 
environmental enforcer met and corresponded frequently about 
the agency's work on coal regulations. The article goes on to 
say that the EPA has repeatedly said the regulations on coal-
fired plants will not be a death blow to the industry. However, 
the agency was working closely behind the scenes with the 
Sierra Club, an environmental organization that was pushing the 
agency to adopt standards that would be impossible for power 
plants to meet.
    Many of the e-mails are between John Coequyt, head of the 
Sierra Club's Beyond Coal campaign, and the EPA's Michael Goo 
and Alex Barron, both in the agency's Office of Policy at the 
time. Just yesterday, a report of new e-mails obtained from the 
Freedom of Information Act show more coordination between the 
EPA and extremist environmental groups. The report stated, ``E-
mails show EPA used official events, official events, to help 
environmentalist groups gather signatures for petitions on 
agency rulemaking, incorporated advance copies of letters 
drafted by those groups into official statements by the agency 
and worked with these environmental extremist groups to 
publicly pressure executives of at least one energy company.''
    Madam Chairman, I cannot believe that these are the first 
instances of this type of collusion in this Administration's 
EPA. It is clear that this EPA and this Administration has an 
agenda. And that agenda is hurting jobs, the agenda is raising 
energy costs and the agenda is making poverty worse in 
struggling communities around this country. The message to 
energy producing communities is clear: if you like your job, 
your community and your electricity bill, you can't keep them.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Barrasso follows:]

                   Statement of Hon. John Barrasso, 
                 U.S. Senator from the State of Wyoming

    Thank you, Madam Chairman.
    Last week was the 50th anniversary of the war on poverty. 
This war began when President Lyndon Johnson visited with Tom 
Fletcher and his family on their front porch in Martin County, 
Kentucky. NPR did a story on this iconic moment, and stated, 
``At the time, the poverty rate in this coal-mining area was 
more than 60 percent. Johnson visited the Fletchers on the 
porch of their home--a small wooden structure with fake brick 
siding. Photographers took what would become one of the iconic 
images of the war on poverty: the President crouched down, 
chatting with Tom Fletcher about the lack of jobs.''
    Flash forward to today. According to the U.S. Department of 
Agriculture's latest numbers for 2011, 38.6 percent of the 
population of Martin County is in poverty. NPR stated that this 
is twice the national average.
    In addition, 47 percent of children in the county are in 
poverty. NPR went on to say that ``Today, many people here rely 
on government aid. In fact, it's the largest source of income 
in Martin County. People say it has helped to reduce hunger, 
improve health care and give young families a boost, especially 
at a time when coal mining jobs''--let me repeat--``coal mining 
jobs . . . are disappearing . . . by the hundreds.'' This is 
National Public Radio, not known as a conservative outfit that 
champions coal, saying this.
    The actions of this Administration's EPA to wipe out coal, 
and eventually natural gas, is costing thousands of jobs and 
driving up energy poverty for the most vulnerable. I can only 
conclude that this EPA is on the wrong side of the war on 
poverty. In fact, this EPA is the tip of the spear that is 
sending energy producing communities like Martin County, 
Kentucky, Campbell County in my home State of Wyoming, Marshall 
County in West Virginia, and Belmont County in Ohio back to the 
very day before Lyndon Johnson's original declaration.
    When you wipe out the jobs in these communities, and you 
drive up electricity costs, you create poverty, period. Folks 
back in these counties wonder why the EPA is making these 
decisions that deliberately hurt them. Well, the Washington 
Free Beacon shed some light on this in an article written on 
January 10th of this year.
    The article demonstrates that the EPA has been colluding 
with the Sierra Club and their Beyond Coal campaign to 
deliberately draft a rule that will prevent any new coal-fired 
power plants from being built. According to the article, ``E-
mails between the Sierra Club and the EPA produced through a 
Freedom of Information Act (FOIA) lawsuit show the green group 
and senior officials at the nation's top environmental enforcer 
met and corresponded frequently about the agency's work on new 
coal regulations.''
    The article goes on to say that ``The EPA has repeatedly 
said the regulations on coal-fired power plants will not be a 
death blow to the industry. However, the agency was working 
closely behind the scenes with the Sierra Club, an 
environmental organization that was pushing the agency to adopt 
standards that would be impossible for power plants to meet. 
Many of the e-mails are between John Coequyt, head of the 
Sierra Club's `beyond coal campaign,' and the EPA's Michael Goo 
and Alex Barron, both in the agency's office of policy at the 
time.''
    And just yesterday, the Washington Free Beacon reported new 
e-mails that show more coordination between EPA and extremist 
environmental groups. The paper stated, ``E-mails show EPA used 
official events to help environmentalist groups gather 
signatures for petitions on agency rulemaking, incorporated 
advance copies of letters drafted by those groups into official 
statements, and worked with environmentalists to publicly 
pressure executives of at least one energy company.''
    Madam Chairman, I can't believe these are the first 
instances of this type of collusion in this EPA. It is clear 
that this EPA and this Administration has an agenda, and that 
agenda is not to create jobs, provide affordable energy, or 
fight poverty in these struggling communities.
    The message to energy producing communities is clear--if 
you like your job, community, and your electricity bill, you 
can't keep them.
    I thank the Chair and look forward to the testimony.

    Senator Boxer. Thank you, Senator.
    I ask unanimous consent to place into the record an article 
entitled The Future of Coal. Despite the gas boom, coal is 
dead. It goes on to talk about how, over the 20 years, 
employment is down because people are more productive, 
production is actually up. That is No. 1. And No. 2, I want to 
put into the record news today that the third quarter GDP went 
up 4.1 percent compared to the last quarter of George W. Bush 
where GDP went down 3.8 percent and that was the time that the 
Administration then was arguing over they couldn't do anything 
about greenhouse gases, that it wasn't actually in the Clean 
Air Act.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Senator Boxer. So I think we really need to balance this 
out. And now we are going to go to Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chair. No matter where 
you travel in our State, you see the assault of carbon 
pollution on our natural resources. We can take and start with 
farming. We have had three worst ever droughts in the Klamath 
Basin in a 13-year period. And based on the snow pack this 
year, we may well have a fourth this coming summer, devastating 
a key agricultural part of our State.
    If we turn to fishing, we have streams that are smaller and 
warmer, affecting our trout and our salmon. A lot of folk 
certainly appreciate having vital streams with vitality, if you 
will, and do not appreciate this assault of carbon pollution on 
our fishing.
    If we turn to our sea life off the coast, we are having 
trouble with oyster seed, the baby oysters that are distributed 
throughout the industry to create the oyster industry. They are 
having trouble because there is more carbonic acid in the 
ocean. Why? Because of the carbon pollution. Carbon pollution 
assaulting our natural resource base.
    And if we turn to our forests, the concern is even more 
evident. We have pine beetle infestations that are out of 
control because we don't have the cold snaps, cold enough and 
long enough to kill them off in the winter. We have large red 
zones that I have taken tours from the air in that you see red 
trees as far as the eye can see as a result. And we have forest 
fires that are the worst ever in a hundred years summer before 
last, and year after year with drier forests, more lightning 
strikes, more devastation. Part of that, certainly a piece of 
it, has to do with forest health, which is why I am lobbying 
the Administration to continue forest health money for us to be 
able to reduce the load enforcement.
    A lot of it has to do with these changing patterns. In 
fact, the Department of Energy has an early version of their 
study from Los Alamos National Laboratories that says that 
western forests will be largely wiped out by the year 2100 with 
the combination of forest fires and beetle devastation.
    So for the people of Oregon, in our rural areas, who see 
this devastating attack of carbon pollution affecting their 
fishing and farming and forestry, we need to stand up for rural 
America. We need to stand up for our natural resources, we need 
to stand up for this planet.
    And I look forward to your comments. Thank you.
    Senator Boxer. Thank you.
    Senator Inhofe would like to be heard next. Is that OK with 
colleagues?
    Senator Sessions. It would be OK with me, Madam Chair.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. This is one of those times we have the 
Armed Services hearing at the same time, as you well know, 
Senator Sessions.
    On multiple occasions and most recently on May 30th of last 
year, President Obama has said, and this is a quote that he has 
used several times, he said the temperature around the globe is 
increasing faster than was predicted even 10 years ago, and 
that climate is warming faster than anybody anticipated 5 or 10 
years ago. Both statements are false, and through letters to 
you, and I appreciate very much the quick response I got from 
you, Ms. McCarthy, and on the record of this committee, we have 
asked the EPA to provide us with the data backing up these two 
statements, the two statements made by the President.
    But they didn't have the data, and referred us to the U.N. 
IPCC, Intergovernmental, and their scientists, apparently the 
EPA thought they were the source of this. Well, we went there 
and they had nothing to back it up, so apparently the President 
just made that up. And I think it is very important, because 
when you get statements that are made that are supposed to be 
based on logic and on truth, you have to check them out. Last 
week's record cold temperatures brought global warming debate 
back to the public's attention, but that is only important to 
the extent that it is bringing more awareness to the 
uncertainty of the science around the debate. When you go back 
and look at the temperature projections from the climate models 
and compare them to actual temperatures, two things are readily 
evident. First, temperatures have flat-lined over the last 15 
years. And second, an average of over 100 climate models from 
the last decade show that the scientific community did not 
predict this would happen. To my knowledge, not a single 
climate model ever predicted that a pause in global warming 
would ever occur. Senator Sessions is going to go deeper into 
this.
    The truth completely contradicts the Presidents' statement 
and begs the question as to why he and the EPA not only 
continue to deny the truth of it, but why it has raced to stop 
this information from disseminating into scientific record. 
What I am referring to is the Administration's efforts with 
other nations to lobby the IPCC to back up the President's 
statement in the most recent report. And while I did not think 
the IPCC hiatus explanation was sufficient, I have to at least 
give them credit for recognizing the facts for what they are 
and that the hiatus has occurred and does exist, is existing 
today.
    I know the Administration and I will never agree on the 
science of global warming, but we can set aside for now and 
focus perhaps on the more alarming issue, the politics of EPA's 
regulations.
    In October 2012, when I was ranking member of this 
committee, I released report highlighting the Administration's 
systematic actions to delay finalization of costly 
environmental regulations until after the 2012 presidential 
election. Whether it was the farm dust rule or the ozone 
standards, the President punted regulation after regulation 
until after the election to minimize the influence this would 
have on voters. Again, it appears he is doing exactly the same 
thing for the first round of greenhouse gas regulations for the 
construction of new power plants.
    As we know, this is because under the Clean Air Act, this 
is significant, new rules for power plants must be finalized 
within 1 year of the proposal's publication in the Federal 
Register, or the proposed rule is invalidated. This is 
important, because after announcing the climate action plan, 
the President ordered the EPA to issue a new proposal by no 
later than September 20th of 2013.
    Now, the EPA proposed a new rule on September 20th, but it 
didn't publish the Federal Register until after January 9th of 
2014. Had the EPA published the rule in the Federal Register on 
the same day it proposed it, on September 20th, it would have 
been forced to finalize the rule by September 20th of 2014, 
which is about 6 weeks prior to the 2014 elections. But because 
the agency delayed the publication until last week, the EPA 
will not be required to finalize the rule until 8 weeks after 
the election.
    This reveals an astonishing double standard. On one hand, 
the President says that we don't have time to delay action on 
global warming. He says we must act before it is too late. But 
on the other hand, his actions show it is OK to wait to 
finalize rules that will harm the economy until after the 
elections, so they won't have an impact on the vulnerable 
candidates that might be damaged by this.
    Ultimately, this hypocrisy reveals the Administration is 
fully aware that the EPA's greenhouse gas regulations will put 
a drag on the economy. Study after study has shown that 
greenhouse gas regulations will cost the economy between $300 
billion and $400 billion a year. If we remember, the 
predecessor of Ms. McCarthy said before this committee that 
even if we did pass these, it wouldn't have an effect of 
reducing greenhouse gases worldwide because it would only 
affect the United States.
    Let me say to Ms. McCarthy, thank you very much for your 
very kind condolences over the problem that we had. Thank you, 
Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    On multiple occasions, and most recently on May 30th of 
last year, President Obama has said that ``the temperature 
around the globe is increasing faster than was predicted even 
10 years ago'' and that ``the climate is warming faster than 
anybody anticipated 5 or 10 years ago.''
    Both statements are false, and through letters to you, Ms. 
McCarthy, and on the record in this Committee, we've asked the 
EPA to provide us with the data backing up these statements, 
but they don't have any data and referred us to the U.N. IPCC. 
They had nothing to back it up, so President Obama just made it 
up.
    Last week's record cold temperature brought the global 
warming debate back to the public's attention, but that's only 
important to the extent that it's bringing more awareness to 
the uncertainty of the science around the debate.
    When you go back and look at the temperature projections 
from climate models and compare them to actual temperatures, 
two things are readily evident: (1) temperatures have flatlined 
over the last 15 years; and (2) an average of over 100 climate 
models from the last decade shows that the scientific community 
did not predict this would happen.
    This fact completely contradicts the President's statements 
and begs the question why he and the EPA not only continue to 
deny the truth but why it has raced to stop this information 
from disseminating into the scientific record.
    What I'm referring to is the Administration's efforts, with 
other nations, to lobby the IPCC to back up the President's 
statements in their most recent report. And while I did not 
think the IPCC's hiatus explanation was sufficient, I have to 
at least give them credit for recognizing the facts for what 
they are: that the hiatus has occurred and does exist.
    I know this Administration and I will probably never agree 
on the science of global warming. But we can set that aside for 
now and focus on perhaps the more alarming issue--the politics 
of the EPA's regulations.
    In October 2012, when I was Ranking Member of this 
Committee, I released a report highlighting the 
Administration's systematic actions to delay the finalization 
of costly environmental regulations until after the 2012 
presidential elections. Whether it was the farm dust rule or 
the ozone standard, the President punted regulation after 
regulation until after the election to minimize the influence 
these rules would have on voters.
    And it appears that he's doing the exact same thing with 
the first round of greenhouse gas regulations for the 
construction of new power plants.
    And we know this because under the Clean Air Act, new rules 
for power plants must be finalized within 1 year of the 
proposal's publication in the Federal Register, or the proposed 
rule is invalidated. This is important because after announcing 
his Climate Action Plan, the President ordered the EPA to 
``issue a new proposal by no later than September 20, 2013.''
    The EPA proposed the new rule on September 20, but it did 
not publish it in the Federal Register until January 9, 2014.
    Had the EPA published this rule in the Federal Register on 
the same day it proposed it, on September 20, 2013, it would 
have been forced to finalize the rule by September 20, 2014, 
about 6 weeks before the 2014 elections. But because the Agency 
delayed the publication until last week, the EPA will not be 
required to finalize the rule until January 2015, about 8 weeks 
after the 2014 elections.
    This reveals an astounding double standard. On the one 
hand, the President says that we don't have time to delay 
action on global warming. He says we must ``act before it's too 
late.'' But on the other hand, his actions show it is OK to 
wait to finalize rules that will harm the economy until after 
the elections so they won't have an impact on vulnerable Senate 
Democrats who face voters this fall.
    Ultimately, this hypocrisy reveals that the Administration 
is fully aware that the EPA's greenhouse gas regulations will 
put a drag on the economy. Study after study has shown that 
greenhouse gas regulations will cost the economy $300 billion-
$400 billion per year and will stunt economic growth for 
generations.
    They would be the largest tax increase in American history, 
and our economy simply cannot afford them. And more 
importantly, by this Administration's own admission, the whole 
implementation of the rule would not reduce GHG emissions 
worldwide because it would only apply to the United States. So 
it would be the largest tax increase in American history for 
nothing.

    Senator Boxer. Thank you so much, Senator Inhofe.
    And we turn to Senator Booker.

           OPENING STATEMENT OF HON. CORY A. BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. First of all, I want to say thank you to 
the ranking member and to the chairwoman for this opportunity. 
This is my first hearing on this committee, and it is a 
privilege and honor to be here, especially with committed 
activists on both sides of the aisle who have a passion and 
concern for our country and its well-being. So it is an honor 
to be here as I begin my Senate career.
    Chairwoman, it was a long time ago that I was the mayor of 
New Jersey's largest city. That was back in October. What 
frustrated me is, I am a guy who believes very strongly in the 
power of markets, in the power of private enterprise and 
industry to help poor communities, creating jobs, creating 
economic activity, lifting people up. That is the idea of this 
country.
    But what I get frustrated with about having been a mayor as 
I look at the landscape of my city, and frankly the landscape 
of the State of New Jersey, is that we have it backward in our 
history about what it means to do private enterprise. All over 
Newark and New Jersey right now is a population as a whole 
paying the costs of corporations who did not internalize their 
pollution. Think about this right now. When I was mayor of 
Newark, the government had to spend, and somewhere there were 
Federal dollars, cleaning up brownfields where corporations of 
past years, decades and centuries ago, poisoned our ground, 
just to try and get it ready for economic opportunity. In 
Newark we have an incredible river, the Passaic River, running 
through New Jersey and Newark, that is so polluted right now 
that not only will it cost this Federal Government, as well as 
the State government, as well as past polluters, trying to 
chase them down and legal fees and legal costs, millions and 
tens of millions and hundreds of millions of dollars to ever 
get that river clean enough, but it also killed entire 
industries.
    Everywhere around my State, dozens and dozens of Superfund 
sites that we are paying for as a population. I am all for the 
power of markets. But this idea that we are privatizing profits 
and socializing costs has to stop. And the pain and suffering 
of especially poor populations is something that you cannot put 
a price tag on.
    What would it mean for people in America to live in a place 
where you can't plant in your ground to grow vegetables in your 
back yards? We did urban agriculture in my city, acres of it, 
and we could not go into the ground. We had to put the soil on 
top. Who is paying that cost? What does it mean in a city when 
you are separated from your air, as we have epidemic asthma 
rates? What does it mean to a people that is separated from 
their water, where they can't even go swimming? Who is 
calculating those costs?
    So I am happy that the Federal Government over the years 
has caught up to a lot of these polluters and begun to put the 
regulations in place. But I am telling you right now, they are 
too late. So much land should be developed in economic 
activity, and it can't be touched. We have an Agent Orange site 
in New Jersey that is capped over. So here we are today, at 
another verge of being too late. And again, poor people who 
desperately need economic opportunity are being denied that in 
communities all over New Jersey. Why? Because look, when the 
temperature rises on our planet, please know that cities like 
Newark, New Jersey, are many degrees higher because they lack 
permeable surfaces, their tree canopy isn't there, and they are 
suffering as a result. These cannot be calculated, these 
negative externalities cannot be calculated.
    So what I am simply saying is, I cannot stand by and allow 
the continued socialization of costs and allow those who are 
doing the polluting not to be held accountable for factoring 
those costs into their business. The epidemic asthma rates that 
are causing a generation of children to miss school, talk to 
teachers in urban areas, not just in New Jersey, and see what 
asthma does to undermine the education of children and 
therefore undermine their future economic viability, 
contribution, success that drives our whole economy, you 
understand the peril we are in.
    I end with the simple words of Martin Luther King, a hero 
to Republicans and Democrats. He said, we are now faced with 
the fact, and it seems that we want to ignore many facts in our 
day and age. He says, we are now faced with facts, my friends, 
that tomorrow is today. We are confronted with the fierce 
urgency of right now. In this unfolding conundrum of life and 
history there is no such thing as being too late. We cannot 
afford to be too late and tarry away in needless and senseless 
discussions and undermine our ability to act and link people 
who put these pollutants into our air take responsibilities for 
the costs that they take.
    I do believe that the problem, as King said, is not the 
vitriolic words and actions of bad people, it is the appalling 
silence and inaction of the good people. We are good people. I 
hope that we can act on this urgent need and urgent problem. 
Thank you.
    Senator Boxer. Thank you for that eloquence.
    And we turn to Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you. It is a fair question to ask 
this morning, what is right and what is wrong with the 
President's climate agenda. That is what we are paid to do, is 
to try to do the right thing for America and wrestle through 
these issues. What is right, first, I have said repeatedly it 
seems logical that greenhouse gas increases could, all things 
being equal, result in a warming effect in our atmosphere. 
Scientists have told us that. It is an important scientific 
question and there are smart and justifiable steps that can be 
taken.
    For example, I have supported funding climate research, 
research into potential new technologies, cleaner sources of 
energy, common sense ways to promote energy conservation and 
efforts to expand nuclear power, the most significant emission-
free energy source in the world, I would suggest. I have 
supported in the past ethanol, solar and other renewables and 
gas mileage rules, CAFE standards. But the truth is that 
predictions of warming simply have not occurred at the rate the 
experts have predicted. This rush to force billions more 
dollars of cost in this economy, many more thousands of people 
laid off, based on predictions that are not panning out 
deserves analysis. There is common ground that we can reach, 
things that we can do together. And there are certain things 
that I oppose and do not believe can be justified.
    What is wrong with the President's plan? I would suggest 
four concerns. One, the President's plan lacks balance between 
cost and benefit. This Administration, primarily through EPA, 
is imposing a massive, bureaucratic, expensive plan that 
threatens to kill thousands of jobs and increase energy costs 
for American families. It will hammer middle class working 
families and make our economy less competitive.
    Last month the economy added just 74,000 jobs. For every 
one job added, nearly five left the work force. That is not 
good. Today we have the lowest workplace participation rate in 
36 years. We still have fewer jobs today than in 2008. And the 
President's climate agenda is hindering our economic recovery. 
Just look at the thousands of jobs awaiting approval on the 
Keystone Pipeline, which is being blocked.
    Significantly, the amount taxpayers are being asked to pay 
for this agenda is out of balance. A recent report by the CRS 
found that direct Federal funding to address global climate 
change totaled approximately $77 billion between 2008 and 2013, 
18 agencies involved. For this amount, the taxpayer should 
expect significant benefits. Yet the facts show that if the 
agenda is adopted in its entirety and all these goals are 
achieved in the U.S., there would still be no measurable 
difference in the global temperatures 20, 50 or 100 years from 
now.
    What else is wrong with the climate agenda of the 
President? It empowers Federal bureaucrats to regulate in ways 
that Congress never authorized. I reject the notion that the 
1970 Clean Air Act gave EPA the power to force every coal-fired 
power plant in America to capture and store carbon dioxide. 
Carbon dioxide was never even contemplated when the Clean Air 
Act was passed.
    Moreover, the President continues to misrepresent climate 
science. He repeatedly stated global temperatures are 
increasing more than was predicted 10 years ago. I raised that 
before. This claim is demonstrably false. It is as false as, if 
you like your health insurance, you can keep it. Really worse, 
because it misrepresents existing facts, not something that 
might happen in the future.
    As shown in this chart, which was updated just a few days 
ago, with the most recent satellite data for all of 2013, 
global temperatures have not increased since 1998. They just 
haven't. That is not consistent with the models that we have 
been told correctly predict our future. Even the State 
Department in a letter to me of December of this year 
acknowledged a ``recent slowdown in atmospheric warming,'' they 
acknowledge that. But the President is still claiming it is 
higher than was predicted. That is not acceptable. We expect 
more out of the President and we expect the EPA director to 
tell the President, this is not accurate and to stop saying 
that.
    Finally, the President's plan is doing too much too fast. 
Scientific American just this month had an article entitled The 
Long Slow Rise of Solar and Wind. They say that each widespread 
transition from one dominant fuel to the other has taken 50 to 
60 years. And there is no technical or financial reason to 
believe renewables will rise any faster. Yet we are trying to 
force this beyond reason. They go into some length about that.
    Madam Chair, thank you for having this hearing. These are 
important issues. We need to wrestle with it, and I think we 
can begin that today.
    Senator Boxer. Thank you so much.
    And there is dispute about what you said, and I will put 
some things into the record at the end of the hearing, and I 
will be happy to share them with you, Senator.
    OK, so we're now going to go to Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    For years I have been working with our colleagues here in 
Congress and the Administration, all kinds of stakeholder 
groups across the country to try to tackle one of the biggest 
challenges of our generation, that is climate change. I believe 
climate change exists and that we are living on borrowed time. 
The longer we wait to address this issue, the more damaging and 
expensive it becomes.
    Before the recent recession, we had members of both 
parties, including myself, put forth legislative proposals that 
would grow our economy and provide for a safe climate. This was 
a time when our climate change debates focused on how we would 
grow our economy and clean our environment. It is not a novel 
idea, in the 1970s and 1990s, Republican Presidents and a 
majority of the members on both sides of the aisle supported, 
as you recall, the Clean Air Act and the Clean Air Act 
Amendments of 1990. These clean air protections protected our 
health but also allowed our economy to grow exponentially.
    Unfortunately, in recent years we have seen a shift in the 
debate and have been unable to find common ground in climate 
legislation. Today our climate change debates are focused on 
the science instead of solutions. Our debates focus on 
backsliding clean air laws instead of improving them. 
Essentially, we are back to debating whether we can have a 
strong economy or a clean environment. History has shown that 
this is a false choice.
    As Congress fights over what to do, our communities are 
feeling the first tastes of the harmful effects of climate 
change through record droughts and storms. Coastal communities 
like those in my own State of Delaware are especially 
vulnerable as oceans slowly rise and more extreme storms like 
Superstorm Sandy hit our coasts. These climate impacts are 
costing our country not just in lives impacted but in true 
economic costs. In fact, for the first time in history, the 
Government Accountability Office last year listed climate 
change as one of the biggest fiscal risks facing our country in 
their annual high risk reports, GAO.
    Federal Emergency Management Agency alone obligated over 
$80 billion, $80 billion in Federal assistance for disasters 
declared during fiscal years 2004 through 2011. Despite the 
warnings and the reality, Congress remains gridlocked over this 
issue, while our impacted communities, our children and the 
rest of the world await our leadership. I don't think the world 
can wait much longer.
    That is why I welcome the President's comprehensive climate 
action plan. I think it is a big step. And a big step, and a 
big look forward to hearing today what progress we have made to 
date, and what work remains.
    At the end of the day, I still believe the best path 
forward to combat climate change is through legislation. I hope 
in the near future members of both parties, as well as leaders 
in the private sector and other stakeholders will decide to 
come together in a common sense environmental protections that 
are good for our climate, our health and our economy.
    The last thing I would say, if I could, Administrator 
McCarthy and I were together on Monday of this week in Detroit, 
where GM won car of the year or truck of the year, 
international competition against the best of the world. We 
also saw unveiled a new updated F-150 truck, the top selling 
vehicle in America, the Ford F-150. They have taken 700 pounds 
out of the weight of the vehicle, Madam Chair, 700 pounds, and 
the EPA mileage of that truck, believe it or not, highway 
mileage is 30 miles per gallon. Thirty miles per gallon for an 
F-150. Who would have thunk it.
    We saw internal combustion engines using turbo charges from 
Honeywell and other American companies that are getting 40, 45, 
50 miles per gallon, internal combustion engines. Saw a clean 
diesel engine that is getting like 60 some miles per gallon, I 
think it was a Volkswagen Jetta. And I think a Mazda product 
that is getting 70 miles per gallon. A lot of folk who were 
talking about fuel, not just talking but they are working, 
spending money on fuel cells and on that particular approach to 
production and propulsion.
    A lot of good stuff is happening, a lot of good stuff is 
happening. And part of it is because of the legislative work 
that we did on CAFE that basically said, these are going to the 
goals that we are setting, the milestones that we want to reach 
and by golly, we are reaching them. It is exciting, it is 
creating jobs, it cleans up the environment, it reduces our 
dependence on foreign oil and fossil fuels. But it is actually 
creating a stronger economy, not a weaker economy.
    The last thing I would say, we have a new chairman of GM, 
new president, new CEO, whose name is Mary Barra. At the 
ceremony that Monday morning, GM announced car of the year, 
Corvette Sting Ray, truck of the year, Silverado, and they had 
a huge crush of people around Mary as she tried to leave the 
press conference. As she walked out, I shook hands with her and 
gave her my business card. On it I had written these words, 
Gina. I said ``Proud Mary, keep on rolling.'' Proud Mary, keep 
on rolling. Because they are rolling, they are rolling. They 
are not rolling just to make more money, provide more jobs but 
actually to clean up our economy.
    Thank you very much.
    Senator Boxer. That is the win-win I see.
    Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Madam Chairman and Ranking 
Member for holding the hearing today. I welcome and thank the 
witnesses for being here as well.
    I am especially pleased that we do have four witnesses here 
from the Administration. Congressional oversight, especially 
over EPA as it rolls out rules that jeopardize the 
affordability and reliability of American energy, is critical. 
Americans are very uneasy about a plan being enacted via 
executive fiat and with what seems to be a total disregard for 
the costs associated with it. Owners of coal plants have 
announced that a total of over 55,000 megawatts of coal fueled 
generating capacity will be shut down by 2025. Of this total, 
EPA regulations have been cited as a factor in the closure of 
over 45,000 of those megawatts, 303 coal units in 33 States. 
The American Coalition for Clean Coal Energy conservatively 
estimates that these shutdowns will cause the loss of 17,000 
jobs.
    In 2012, National Economic Research Associates analyzed the 
impacts of several EPA regulations affecting coal fueled 
electricity generation. Compliance costs for the electric 
sector average $15 billion to $15.7 billion per year. U.S. 
employment losses average 544,000 to 887,000 per year. Given 
EPA's recent new source performance standard proposal, which 
hinges upon unproven carbon capture and sequestration 
technology, Americans can only expect even higher energy prices 
and greater job losses.
    Countries that have made shifts away from fossil fuels are 
now finding such policy positions to be untenable. The New York 
Times reported last year, ``Europe faces a crisis in energy 
costs. In Britain, climate changes and charges add 19 percent 
to the electricity prices that large manufacturers pay, steel 
production is down about 30 percent. Britain, where the average 
annual household energy bill has doubled since 2006, is 
approaching a tipping point where large numbers of people 
decide to switch off heat permanently.''
    The Wall Street Journal reported ``support for the European 
Union's climate and energy policy eroded further Friday as the 
Czech Republic became the latest member to denounce subsidies 
for clean but costly renewable energy and pledged to double 
down on its use of fossil fuels. It followed Poland's 
declaration that it would use its abundant domestic coal 
supplies for power generation rather than invest in costly 
renewable energy facilities. Spain abolished subsidies for 
photovoltaic power generation in July. And the U.K.'s power 
markets regulator last month froze solar power subsidies for 
the rest of the year.''
    A headline in the Telegraph read ``Brussels fears European 
industrial massacre sparked by energy costs.'' In the article a 
European commissioner warned that Europe's quixotic dash for 
renewables was pushing electricity costs to untenable levels. 
Likewise, Australia is learning tough lessons from its costly 
carbon tax. In the year after the carbon tax was introduced, 
household electricity prices rose 15 percent and the number of 
unemployed workers has risen by more than 10 percent. 
Meanwhile, Australia's carbon dioxide emissions have actually 
increased and will continue to increase until 2043, according 
to their government.
    I would urge us to heed these lessons and to proceed with 
caution before needlessly damaging our economy and adding to 
the burdens of our citizens. Thank you, Madam Chair, and I look 
forward to today's testimony and questions.
    Senator Boxer. Thank you, Senator Fischer.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair. And again, thank 
you for holding the hearing. I am glad that we are reviewing 
the President's climate regulation plan. Oversight is a good 
thing and we appreciate you all being here. In fact, we need to 
have you up here more often discussing not only these issues 
but these really important problems that we face as a Nation.
    Today the question is not whether greenhouse gases trap 
heat. They do. The question is whether current climate science 
and predict and adequately explain the complexity of climate 
change. Can it do it to the point that our politicians here in 
Washington can manipulate the earth's temperature from their 
desks as we speak? Certainly their track record in that regard 
in the past has not been very good in a number of different 
things.
    The question is also whether expensive regulations would 
have significant impact on the global climate and whether the 
President's policies are worth lost jobs, lower take home pay, 
high gas and electricity prices, higher food prices and so on. 
Sadly, this plan appears to be all pain and no gain. The 
President once said that his climate policies would make the 
cost of electricity necessarily skyrocket. Now he says his 
plans won't cost much. The President may promise that if you 
like affordable energy, you can keep affordable energy. But 
like his other promises, we know that that is simply not true. 
We hear many claims, but the actual climate is not doing what 
the models predicted. As one of our witnesses said last year, 
the models have not been successfully field tested for 
predicting climate change and so far, their error rate should 
preclude their use from predicting future climate change.
    So what does all this mean? Let me explain it in my terms. 
I am an optometrist, my brother was an ophthalmologist, we had 
an eye clinic. When a patient's symptoms were complicated or 
unclear, we never pretended to be certain about a diagnosis. 
Instead, we would take a scientific approach and be thoughtful, 
ask questions, investigate. And we were honest with our 
patients. We would not prescribe a risky procedure if we were 
uncertain whether we would do more harm than good.
    Climate change is similar. There is uncertainty. We see 
symptoms, but there is strong, contradictory evidence, there is 
broad consensus that carbon emissions have at least some impact 
on the climate, but we don't know how much. And beyond that, 
the consensus breaks down. So the diagnosis is unclear. The 
President's climate regulations are a series of risky 
procedures with potentially harmful consequences to treat a 
possible problem that we don't actually understand. So a 
scientific approach, despite what is being said, and being 
actually done, the actual scientific process is to be 
thoughtful, ask questions and investigate.
    Sadly, those who raise legitimate questions are portrayed 
as ``anti-science.'' But there is nothing scientific about 
discrediting conflicting evidence and asking reasonable 
questions. Political parties are not science referees, cutting 
off debate when it suits one side. In short, no political party 
has a monopoly on the facts.
    Speaking of the facts, when reviewing proposed rules we 
must be honest about both the benefits and the costs. Sadly, 
the Administration recently disregarded well established OMB 
cost-benefit guidelines to generate an increased social cost of 
carbon. In other words, they broke the rules to make emissions 
look more costly. They cooked the books to meet their needs.
    Instead of creating climate millionaires who benefit from 
carbon trading schemes and new regulations, let's remember that 
the pain falls hardest on low income families. These rules will 
drive industry costs, hurting American workers and creating 
foreign factories that emit far more than we would save. This 
climate plan can pass Congress, and I understand the temptation 
to ignore our system of checks and balances, pretend the 
Constitution doesn't exist and implement whatever plans the 
President would like. But that is not how representative 
democracy works. The rest of the world is retreating as we 
heard earlier. Instead, let's find common ground and let's 
encourage an all of the above energy mix including wind, 
renewable, biomass, hydro, solar, natural gas. We will continue 
to reduce carbon emissions. Nuclear power can produce vast 
quantities of emissions-free energy. Efficiency and new 
innovations offer great promise.
    In short, regardless of whoever's views, we can all work 
together to reduce emissions without this job killing climate 
plan. Let's find that common ground. I very much look forward 
to your testimony. Thank you.
    Senator Boxer. Thank you so much, Senator.
    And last but not least, Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Madam Chairman, and thank you to 
members of both panels. It is about to be your turn.
    In Federalist Number 47, James Madison stated there can be 
no liberty where the legislative and executive powers are 
united in the same person or body of magistrates. I fear 
members of our current Administration are anointing themselves 
as both legislators and administrators with this climate action 
plan, and I hope we have a dialogue about that today and in the 
coming weeks.
    I also hope we have a reasonable dialogue as Senator 
Boozman suggested on the science, on the different views, on 
the matter of climate science. And I hope we can discuss the 
various views in this room and in this country with respect. 
What is called for with regard to climate science is a robust 
and comprehensive dialogue. Already we have heard it suggested 
today by some of my friends on the other side of the aisle that 
to question the science of climate science amounts to scandal. 
I hope we can avoid that. This morning I hope we are able to 
engage in a productive exchange of our concerns about the 
President's plan, and about executive overreach and this 
agenda's effect on jobs. I think we should be able to talk 
openly about climate science issues, such as the link between 
climate change and human activity as well as the challenges of 
making long-term climate predictions based on models.
    Now, here are some facts. According to analysis done by Dr. 
John Christy of the Earth System Science Center at the 
University of Alabama Huntsville, predictions made by 73 
computer models cited by the United Nations latest 
Intergovernmental Panel on Climate Change, IPCC, Fifth 
Assessment Report, do not accurately predict the lack of 
temperature rises seen in the past 17 years. In other words, 
the IPCC models have been inaccurate. The past 15 years, 
recorded world temperatures have increased only a quarter of 
the rate IPCC claimed when it published its last assessment in 
2007.
    Further, the 2007 IPCC report included predictions of a 
decline in Antarctic sea ice. But the latest document does not 
explain why this year it is at a record high. Antarctic sea ice 
is at a record high.
    In addition, the 2013 report states most models simulate a 
small decreasing trend in Antarctic sea ice extent in contrast 
to the small increasing trend in observations. The reality 
differs from the models.
    The 2007 forecast for more intense hurricanes has also been 
ignored in the new document after this year was one of the 
quietest hurricane seasons in history. This from a leading 
group of international experts on climate science.
    A recently published article in Science magazine entitled 
In the Hot Seat said the fact is there is little or no evidence 
that global warming steered Sandy into New Jersey or made the 
storm any stronger. And scientists haven't even tried yet to 
link climate change with particular fires.
    Despite this knowledge, the Administration has based many 
policy decisions on the link between specific extreme weather 
events and climate change, as well as predictions on climate 
models. Climate modeling is difficult by nature, and there are 
large degrees of uncertainty in the resulting predictions. 
Anyone who suggests, as has been suggested in this room today, 
that climate science is not complicated, is simply being naive. 
Many of the President's policies will negatively affect our 
constituents by preventing them from earning a living. How can 
we expect to assure these people that their sacrifices will 
benefit them in the long term, when we do not have the capacity 
to accurately predict regional climate changes?
    Again, these discussions are important and they should be 
had in this Congress without either side being accused of 
engaging in scandal. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Well, it is your turn, panel. I am sure that you were 
fascinated with all of our comments and mesmerized by them. But 
now it is your turn to mesmerize us.
    So, Hon. Gina McCarthy, Administrator of the Environmental 
Protection Agency, please.

    STATEMENT OF HON. REGINA McCARTHY, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thanks, Chairman Boxer, Ranking Member 
Vitter, members of the committee. First, let me thank you for 
the opportunity to come and testify before you today.
    In June of last year, the President reaffirmed his 
commitment to reducing carbon pollution when he directed many 
Federal agencies, including the Environmental Protection 
Agency, to take meaningful steps to mitigate the current and 
future damage caused by carbon dioxide emission and to prepare 
for the anticipated climate changes that have already been set 
in motion.
    Climate change is one of the greatest challenges of our 
time. Responding to this challenge is an urgent public health, 
safety, national security and environmental imperative that 
presents both an economic challenge and an economic 
opportunity. Both the economy and the environment must provide 
for current and future generations. We can and must embrace 
cutting carbon pollution as a spark for business innovation, 
job creation, clean energy and broad economic growth. The 
United States' success over the past 40 years makes clear that 
environmental protection and economic growth go hand in hand. 
The President's climate action plan directs Federal agencies to 
address climate change using existing executive authorities.
    The plan has three pillars: cutting carbon pollution in 
America, preparing the country for the impacts of climate 
change, and leading international efforts to combat global 
climate change. EPA plays a critical role in implementing the 
plan's first pillar, which is cutting carbon pollution. Over 
the past 4 years, EPA has begun to address this task under the 
Clean Air Act. In 2009, EPA and the National Highway Traffic 
Safety Administration, along with the auto industry, the UAW 
and other stakeholders, worked together to set greenhouse gas 
and fuel economy standards for model year light duty vehicles 
2012 to 2025. Over the life of these vehicles, the standards 
will save an estimated $1.7 trillion for consumers and 
businesses and cut America's oil consumption by 12 billion 
barrels, while reducing greenhouse gas emissions by 6 billion 
metric tons.
    Building on that success, the President asked EPA to work 
with States, utilities and other key stakeholders to develop 
plans to reduce carbon pollution from both future and existing 
power plants. In March 2012, the EPA first proposed carbon 
pollution standards for future power plants. After receiving 
over 2.5 million comments, we made the decision to issue a new 
proposal based on this input and updated information.
    In September 2013, the EPA announced its new proposal. The 
proposed standards would establish the first uniform national 
limits on carbon pollution from future power plants. They do 
not apply to existing power plants. The proposal set separate 
national limits for new natural gas-fired turbines and new 
coal-fired units. The rule provides flexibility to the 
operators of these units by allowing them to average their 
emissions over multiple years to meet a somewhat tighter 
standard.
    The standards reflect a demonstrated performance of 
efficient lower carbon technologies that are currently being 
used today and that set the stage for continued public and 
private investment in these technologies. We look forward to 
robust engagement on that proposal.
    And for existing power plants, we are engaged in an 
outreach to a broad group of stakeholders who can inform the 
development of the proposed guidelines which we expect to issue 
in June of this year. These guidelines will provide guidance to 
States which have the primary role in developing and 
implementing plans to address carbon pollution from the 
existing plants in their States. When we issue the proposed 
guidelines, the more formal public process will begin, 
providing an additional opportunity for stakeholders and the 
general public to provide input.
    The climate action plan also calls for the development of a 
comprehensive interagency strategy to address emissions of 
methane as well as domestic action to reduce emissions of 
hydrofluorocarbons, or HFCs. EPA is working on these aspects of 
the President's plan as well.
    The President's plan also calls for a broad array of 
actions to prepare for the impacts of climate change. EPA is 
incorporating research on climate impacts into the 
implementation of our existing programs and developing 
information and tools to help decisionmakers better understand 
these impacts. EPA is also working closely with our Federal 
agency counterparts on several other aspects of building our 
national resilience.
    Working closely with the State Department, EPA is also 
engaged in international discussions with our partners in other 
countries in reducing carbon pollution through an array of 
activities.
    In conclusion, the President's climate plan provides a road 
map for Federal action to meet the pressing challenge of 
climate change, promoting clean energy solutions that 
capitalize on American innovation and drive economic growth. 
EPA looks forward to working with other Federal agencies and 
all stakeholders on these critical efforts.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of Ms. McCarthy follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Boxer. Thank you so much, Administrator McCarthy.
    And we turn to Hon. Daniel Ashe.

   STATEMENT OF HON. DANIEL M. ASHE, DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Ashe. Thank you, Chairman Boxer, Ranking Member Vitter 
and members of the committee. I want to also thank you for the 
chance to testify on behalf of the President's climate action 
plan and the U.S. Fish and Wildlife Service's role under that 
plan.
    The best science available to us today supports the 
conclusion that earth's climate system is undergoing rapid and 
significant change, and I believe this is the greatest 
challenge to current and future management of our wildlife 
resources. I was trained as a scientist, and I lead a science 
driven organization. We always begin with what we know through 
observation.
    The earth's climate is changing. It is changing at an 
accelerating rate. Average surface temperatures are increasing. 
Ocean temperatures are rising. Sea ice and glaciers are 
melting. Sea levels are rising. Oceans are acidifying. Plants 
are flowering earlier. Birds are migrating sooner. In general, 
wildlife species distributions are shifting northward and 
higher in elevation. All of these observed changes are 
consistent with observations in the rise of greenhouse gas 
emissions and with the conclusion that human emissions of those 
gases are driving change in the earth's climate system.
    And it leads to the conclusion that we as responsible 
wildlife managers must anticipate that large scale ecological 
disruption will be an increasing aspect of the daily challenges 
that we face in doing our jobs. We must prepare or be 
unprepared to deal with the consequences.
    The President's climate action plan is compelling in 
helping us to prepare. It asks us to reduce carbon pollution, 
prepare our Nation for the impacts of changing climate and help 
the world understand and respond to the challenge as well. It 
is really asking us to be the leaders that we are supposed to 
be.
    In decades past, the U.S. Fish and Wildlife Service has 
been a leader in recognizing and helping prepare the Nation to 
deal with great environmental challenges. Market shooting and 
devastation of migratory birds, indiscriminate use of 
industrial pesticides like DDT, large scale destruction of 
wetlands and species extinction, great leaders prepared the 
organization and its employees to deal with those challenges. 
Today we see the emergence of a new and likely much greater 
challenge, climate change. It is our obligation to prepare our 
great institutions, like the U.S. Fish and Wildlife Service, to 
meet this challenge. We cannot do this alone, and the action 
plan compels us to work with other Federal agencies, States, 
tribes, local communities and the private sector and private 
citizens.
    In March 2013, the Service worked with Federal and State 
agency partners to release the National Fish, Wildlife and 
Plants Climate Adaptation Strategy. This strategy identifies 
key vulnerabilities to fish, wildlife and plants and presents a 
unified approach to reduce the negative effects of climate 
change on our wildlife heritage and on the communities and 
economies that depend on those resources.
    Since it was released, the strategy has been incorporated 
into guidance to all Federal agencies for their climate change 
adaptation planning efforts. And it is the focus of legislation 
introduced by Senator Whitehouse on climate change adaption for 
natural resources. The Service is embracing the challenge 
presented by climate change to the Nation's fish and wildlife 
resources. We realize that addressing this challenge was a good 
measure of success and in the long term will require our 
commitment, resolve, passion and creativity. We look forward to 
working with this committee and the Congress to enhance this 
most important work, work that will pass on our wildlife 
resource heritage to future generations of Americans.
    Madam Chairman, thank you for the opportunity to testify, 
and especially for your leadership on this issue. During the 
members' presentations today, I heard many things of interest, 
and I heard Senator Whitehouse say do your duty. I heard 
Senator Sessions say, there is common ground. I think those are 
both words to live by, and things we can bear in mind as we go 
forward.
    [The prepared statement of Mr. Ashe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
           
    
    Senator Boxer. Thank you so much.
    And we turn to Hon. Nancy Sutley, who is the Chair of the 
Council on Environmental Quality.

     STATEMENT OF HON. NANCY H. SUTLEY, CHAIR, COUNCIL ON 
                     ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Madam Chairman, Ranking Member 
Vitter and members of the committee. Thank you for the 
opportunity to discuss the President's climate action plan.
    The President believes we have an obligation to our 
children to reduce carbon pollution, to protect our future. The 
climate action plan builds on steps the Administration has 
already taken to cut carbon pollution and to strengthen our 
economy by supporting domestic clean energy jobs. As you heard, 
the plan has three pillars: cutting carbon pollution at home, 
preparing the Nation for the impacts of climate change we can 
avoid and leading international efforts to address this global 
challenge.
    The key part of the plan is to reduce carbon pollution in 
the United States. The Administration is already making 
significant progress. In the last 5 years, the U.S. has more 
that doubled renewable energy generation from wind, solar and 
geothermal sources. We are setting a goal to double electricity 
production from these sources again by 2020.
    We are also focusing efforts on energy efficiency. As you 
have heard, we have established new fuel economy and greenhouse 
gas standards that will double the efficiency of our cars by 
the middle of the next decade and help families save money at 
the pump. Also established the first-ever fuel economy and 
greenhouse gas standards for heavy duty trucks, buses and vans, 
and the plan promises a second round of standards for heavy 
duty trucks.
    The plan also sets a goal to reduce carbon pollution 
through energy efficiency and standards for appliances and 
energy efficiency efforts in Federal buildings. Since August, 
the Department of Energy has proposed or finalized several 
energy efficiency standards for appliances and other products. 
When combined with other energy efficiency standards issued by 
the Administration, they will help cut consumer electricity 
bills by hundreds of billions of dollars.
    We are also focused on making sure that the Federal 
Government is leading by example. Since 2008, Federal agencies 
have reduced their greenhouse gas emissions by almost 15 
percent. The President recently directed agencies to consume 20 
percent of their electricity from renewable sources by 2020, 
more than double the current goal.
    Even as we work to cut carbon pollution, we also need to 
take action to address the impacts of climate change that can't 
be avoided. We know as the earth continues to warm, we can 
expect more frequent extreme weather events, including large 
storms, severe droughts and heat waves. In 2012, weather and 
climate disasters caused over $110 billion in damage. Last 
summer the Administration released the Hurricane Sandy 
rebuilding strategy. The strategy focuses on helping the region 
build to be more resilient to deal with future storms. As part 
of these efforts, the Department of Housing and Urban 
Development and its partner agencies are investing in safe and 
more resilient infrastructure, and the Federal Transit 
Administration is strengthening public transit systems affected 
by the storm. These efforts can serve as a model for 
communities across the country.
    The President also signed an executive order directing 
agencies to help communities strengthen their resilience to 
extreme weather and other climate impacts. The agencies are 
directed to modernize their programs to better support local 
preparedness, to better manage our natural resources to improve 
resilience and to develop information and tools to help local 
decisionmakers. The executive order also established a task 
force of State, local and tribal elected leaders to advise the 
Administration. Their recommendations will be vital to ensure 
that the Federal Government responds to the needs and 
priorities of communities when addressing the impacts of 
climate change.
    Finally, all agencies are now examining how a change in 
climate will affect their missions. Last February, Federal 
agencies for the first time released their climate change 
adaption plans, outlining strategies to reduce their 
vulnerability to the impacts of climate change.
    As you have heard, we also understand that our response to 
climate change must be global and we are committed to playing a 
leadership role that can support a strong international 
response. The Administration is pursuing this through multiple 
channels, including the United Nations Framework Convention on 
Climate Change, as well as multi-lateral and bilateral 
initiatives focusing on tackling the key drivers of greenhouse 
gas emissions.
    The impacts of climate change are being shouldered by 
communities, families and businesses across the country. For 
the sake of our economy and the legacy that we leave our 
children, it is vital to address this problem head-on. Thank 
you for listening, and I look forward to your questions.
    [The prepared statement of Ms. Sutley follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Boxer. Thank you very much.
    And now we turn to Hon. Dan Tangherlini.

STATEMENT OF HON. DAN TANGHERLINI, ADMINISTRATOR, U.S. GENERAL 
                    SERVICES ADMINISTRATION

    Mr. Tangherlini. Good morning, Chairman Boxer, Ranking 
Member Vitter and members of the committee. I appreciate being 
invited here today to testify on this important topic.
    Last year, the U.S. Government Accountability Office added 
climate change to its high risk list, citing that it presents a 
significant financial risk to the Federal Government. According 
to the National Climatic Data Center in 2012, weather and 
climate disaster events caused over $110 billion in damage and 
337 deaths, making it the second costliest year on record. The 
Administration is committed to reducing the damage caused by 
climate change and to preparing for its long term impacts. In 
June 2013, the President reaffirmed this commitment with a 
climate action plan that directs agencies to cut carbon 
pollution, prepare for the impacts of climate change and lead 
international efforts to address global climate change.
    GSA is one of the many Federal agencies doing its part to 
assist in this effort. As the owner and caretaker of Federal 
properties, our large and diverse portfolio presents many 
opportunities to increase the Government's energy efficiency, 
reduce our contribution to climate change, save millions of 
dollars in energy costs, and to plan and implement risk 
management strategies. As part of the President's climate 
action plan, GSA is undertaking efforts to improve the 
efficiency of our Federal buildings, identify and prepare for 
climate risks, and is working to ensure that we share lessons 
learned with our partner agencies.
    GSA reduces energy consumption across its portfolio through 
a variety of means. GSA leverages technology such as advanced 
metering, remote building analytics and smart building systems 
to uncover deeper energy savings opportunities. We also use 
rapid building assessments to perform sophisticated energy 
audits that require no onsite work or new device installations. 
Another valuable tool is energy savings performance contracts. 
These are public-private partnerships where the private sector 
provides the up front capital to make energy efficiency 
upgrades in a facility and is paid by the Federal agency from 
the guaranteed energy savings under the contract. Once the 
contract ends, the agency continues to benefit from the reduced 
energy costs.
    The President's climate action plan sets new goals on the 
use of renewable energy, increasing the current goal from 7.5 
percent to 20 percent by 2020. In fiscal year 2013, 46.1 
percent of electricity procured or generated by GSA came from 
renewable sources, and enough renewable energy to power nearly 
2,600 homes came from our own facilities.
    GSA is also working to improve our partners' understanding 
of their energy use. As directed in the December 2013 
Presidential Memorandum on Federal Leadership and Energy 
Management, GSA is partnering with the Department of Energy and 
the EPA to prepare and initiate a pilot Green Button initiative 
that will increase our partners' ability to manage energy 
consumption, reduce greenhouse gas emissions and meet 
sustainability goals.
    Taken together, these efforts have led to a significant 
reduction in GSA's energy use intensity and greenhouse gas 
emissions. In fiscal year 2013, GSA reduced energy usage per 
square foot by 24.8 percent, ahead of statutory targets. Since 
fiscal year 2011, these reductions have saved $192.7 million in 
avoided costs. Also in fiscal year 2013, GSA achieved an 
approximately 50 percent reduction in greenhouse gas emissions, 
exceeding our 2020 target. This amount of energy that we no 
longer use is enough to power over 60,000 homes for 1 year.
    GSA is also preparing for the potential impacts of climate 
change as part of the President's climate action plan. While it 
is impossible to predict the precise occurrence and cost of 
each and every climate risk, it is imperative to develop a 
robust risk management approach. The President's climate action 
plan represents a commitment to reduce and respond to the 
impacts of climate change. GSA is responsible for buildings and 
offices throughout the Government and across this country. This 
means we play a vital role in mitigating and preparing for 
these adverse effects. Through improved energy efficiency and 
risk planning, we hope to continue to make progress on both of 
these critical efforts.
    I appreciate the opportunity to be here today and I welcome 
any questions you have.
    [The prepared statement of Mr. Tangherlini follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you so much to our patient panel. We 
will start the questioning and comments.
    Sometimes the more things change, the more they stay the 
same. Let's take the often-repeated charge that scientists are 
divided on climate change. Let's take a look at that. So we 
have quantified it. There are 98 percent of the scientists, I 
am sorry, I will correct myself, 97 percent of the scientists 
who say that human activity is causing carbon pollution. And 
there are 3 percent who fight that. So it is 97 percent of the 
scientists on one side and 3 percent on the other. And my 
colleagues act as if it is 50-50.
    It is just like the scientists who are divided on whether 
or not smoking caused cancer. It was 97 percent to 3 percent 
and when you looked at the 3 percent, they were somehow 
connected to the tobacco industry. And I can tell you that most 
scientists who say no to climate change have ties to big oil 
and coal polluters, including the scientist who was mentioned 
here today by Senator Wicker. We checked it out. He is from a 
think tank that is funded by the Koch brothers.
    So again, when people say there is a split, let's look at 
what the split is. Second----
    Senator Wicker. Madam Chairman.
    Senator Boxer. I am going to continue and then I am happy 
to call on you in your turn.
    Now, there's also predictions of economic gloom and doom, 
gloom and doom if we address climate change and if we move to 
clean energy. We are already hearing about the money we are 
saving by going to energy conservation.
    But let's go back 40 years. Forty years, when in this 
committee we had a robust debate, I wasn't here then, on the 
Clean Air Act. And it was gloom and doom, we were going to 
destroy the economy. Let's look at what happened since the 
Clean Air Act.
    Over the last 40 years, our national GDP has risen 207 
percent. The total benefits of the Clean Air Act amount to more 
than 40 times the cost of regulation. For every dollar spent we 
get $40 in benefits. So the gloom and doom that is always 
predicted when we move to clean up the environment keeps being 
repeated. Fortunately, the people don't believe it. Only the 
people here believe that. Too many. But the people out there, 
Republicans, Democrats, Independents, don't believe it.
    Now, I want to ask Administrator McCarthy a question 
related to something that is very disturbing that has been said 
on the other side. And I believe my friends truly mean this, 
they are not, they are very, very concerned. And they are 
concerned that the President is acting by fiat, that he is 
above the law, that he is moving in a way that isn't warranted 
and that is up to the Congress to take action to move forward 
with new standards for existing power plants and so on and so 
forth.
    So I just looked at the Supreme Court decision, there are 
two of them, one in 2007. And what they said then contrary to 
something Senator Sessions said, which he has a right to 
believe, he said that carbon wasn't covered. Well, the Supreme 
Court said that ``The statute is unambiguous,'' and the Clean 
Air Act covers carbon dioxide, methane, nitrous oxide, 
hydrofluorocarbons, without a doubt.
    Senator Sessions. Madam Chair, you quoted my name, and----
    Senator Boxer. You will have the time. You will have the 
time.
    Senator Sessions [continuing]. Your interpretation of my 
remarks----
    Senator Boxer. You will have the time. You can talk about 
me for an entire 5 minutes, I don't care. Now, could you set 
the clock back and give me another 30 seconds? Thank you.
    [Laughter.]
    Senator Boxer. Here we are. Clear Supreme Court case 
decision, followed by another one in 2011 that said absolutely, 
you have to move on these power plants.
    So my question to you is, as you move forward with this, 
isn't it true that if you did not move forward with the climate 
action plan, if you did not try to regulate this carbon 
pollution which is so damaging and which is covered by the 
Supreme Court decision that you could be sued and you could be 
harmed if you didn't do that?
    Ms. McCarthy. Madam Chairman, we actually have been 
petitioned and we are in litigation about regulating carbon 
pollution in a number of sectors. The most important thing to 
remember about the President's carbon action----
    Senator Boxer. Sued because people think you are not doing 
enough?
    Ms. McCarthy. That is correct.
    Senator Boxer. Or because you are doing too much?
    Ms. McCarthy. That is correct, because once you decide it 
is a pollutant under the law and that it endangers, EPA is 
obligated to look at those public health and environmental 
impacts and to consider those in their regulations.
    Senator Boxer. So you are already being sued by those in 
the public who think EPA is not doing enough, while people here 
say you don't have the right to do anything, and the President 
has no right to do anything. It is very clear, if you read 
these cases, that you have to move forward.
    Ms. McCarthy. But the President made the--I am sorry.
    Senator Boxer. No, no, go right ahead.
    Ms. McCarthy. But the President made the very sensible and 
common sense decision to tell us to focus on power plants 
first. Because power plants represent 33 percent of the carbon 
emissions that are being emitted in the U.S. and 60 percent of 
the emissions from stationary sources. So we are trying to be 
very deliberate and careful in how we apply the Clean Air Act.
    Senator Boxer. I believe you are. And I would close with 
this, the endangerment finding was started under George W. 
Bush, and we got that endangerment finding, that draft, and it 
was completed under the Obama administration. So that was 
common ground.
    I would call on Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. Administrator 
McCarthy, I am going to have 5 or 10 minutes talking with you, 
so I want to focus on all of these new, very consequential 
regulations. But I first want to ask that if this committee 
calls a separate hearing on the investigation and circumstances 
surrounding John Beale, and if you are invited to testify along 
with other appropriate witnesses, would you come and testify at 
that hearing?
    Ms. McCarthy. Whatever the Chair wishes, sure.
    Senator Vitter. Is it fair to say whatever the committee 
wishes, if it is a committee invitation?
    Ms. McCarthy. If I am invited, I will always appear. Yes.
    Senator Vitter. So you have no hesitation talking about 
that subject?
    Ms. McCarthy. None at all.
    Senator Vitter. Thank you.
    OK, Ms. McCarthy, I want to focus on one area where I think 
there is a clear overstep, and that is the greenhouse gas new 
source performance standards. You have said as you relooked at 
that, ``We did what democracy demands, we paid attention, we 
read those comments, we thought about them and we decided that 
we needed to update the proposal.'' Talking about the initial 
wave of comments that came in about that. And you further 
stated, ``Our best defense is to do it right, to do it 
correctly under the law.''
    However, the Energy Policy Act of 2005 clearly prohibits 
EPA from considering certain federally funded projects when 
setting the standards. And yet three such projects form the 
majority of EPA's discussion regarding new plants. And there is 
no mention of EPA Act 2005 in the over 400 pages of that 
proposal.
    Recent press accounts report that you and the agency were 
unaware of this conflict with the EPA Act requirement until it 
was pointed out by colleagues in the House of Representatives. 
How did the EPA miss this?
    Ms. McCarthy. Senator, I will advise you that EPA is, 
understands that concerns have been raised about EPACT. To 
address those concerns we have very recently, I think as early 
as this morning, provided to OMB for interagency review a 
notice of data availability, so that the package is very clear 
about its intersect with EPACT. We believe that having this 
specific consideration for EPACT makes no change in the 
standard as we have proposed, but it is important that the 
public have this information and have us provide more clarity 
on that issue. That is exactly what we are doing.
    Senator Vitter. Is all of this since the issuance of the 
new proposed rules, or did you consider that, did you evaluate 
that before the issuance of the new rules?
    Ms. McCarthy. I can't say what the individual staff was 
aware of or not. I certainly was not aware that we should raise 
that issue specifically. We are going to address that issue 
specifically, but Senator, we are looking at evidence in data 
well beyond what has been associated with the EPACT funded 
projects. So we are very comfortable with the standard that we 
propose. We think it is a very robust data set. We are looking 
at those facilities in concert with all those, which is 
perfectly appropriate under EPACT.
    Senator Vitter. Well, as you know, these three projects 
that under the law you can't consider, you clearly cannot 
consider, they form the majority of your discussion about the 
regs. So I think there is a serious problem there.
    But let me go on. Let me just also point out, you said EPA 
read all the comments. San Miguel Electric Cooperative 
submitted comments and they underscored this particular issue. 
They pointed out, this law is in direct conflict with what you 
are doing, with your evidence, your support for doing this. So 
I just wanted to point that out.
    This is very concerning, because this is a direct legal 
conflict. I think this concern is underscored by the fact that 
litigation has now been filed over this direct legal conflict, 
which is clearly, by EPA's own submissions and writing, the 
majority of its backing for these new source performance 
standards.
    Ms. McCarthy. But Senator, our understanding of the reading 
of the EPACT is that we can't solely make a determination on 
the basis of EPACT funded facilities. There is nothing in the 
law that precludes us from considering those in the context of 
a larger, more robust data set, which is what we are actually 
doing.
    Senator Vitter. OK. I want to move on to the social cost of 
carbon process. Many of us have written you and others at EPA, 
very concerned about this secretive process. We wrote you in 
September of last year, we wrote another one of your high-
ranking deputies in November with detailed questions. We got a 
response at 8:18 a.m. this morning. I appreciate that. I think 
the timing of that response says a lot.
    We are going to be, I am out of time, so we are going to be 
submitting detailed questions as a follow up to you and to the 
other witnesses for the record regarding the social cost of 
carbon process, because it is being used to justify all sorts 
of regulations, we believe, without adequate backing.
    Senator Boxer. Thank you very much, Senator Vitter. Senator 
Cardin.
    Senator Cardin. Thank you, Madam Chair, and I thank all 
four of our witnesses, not only for their appearance here but 
for their public service and for your strong leadership on this 
issue.
    Mr. Tangherlini, I want to ask you a question concerning 
one specific consolidation. But buildings play a huge role in 
dealing with the carbon emissions. We had the President take 
some pretty aggressive action so that the Federal Government is 
a leader in reducing carbon in our buildings. The Committee on 
the Consolidation of the FBI, our resolution makes it clear 
that to the maximum extent practicable the Administration shall 
require that the procurement include requirements for water and 
energy efficiency and stormwater management in accordance with 
the executive order. This is the largest public works 
consolidation probably in this decade. So it is one that we 
will want to be a clear example of what we can do to reduce 
carbon emissions.
    But we also want to consolidate the FBI, because it is 
inefficient the way they operate, which is also causing excess 
energy use and a larger carbon footprint than we need. The 
committee is pretty clear when it says we want a consolidated 
headquarters facility, giving you up to 2.1 million rentable 
square feet and up to 55 acres. The Appropriations Committee 
just recently in its report accompanying the Omnibus 
Appropriation Bill made it clear that the FBI headquarters 
consolidation is expected to result in full consolidation of 
the FBI headquarters.
    Can you assure this committee that passed the resolution 
that you will be in full compliance with both the environmental 
issues as well the plan that is ultimately selected? And that 
is going through a competitive process, which I certainly full 
understand. But it will provide for the full consolidation of 
the FBI.
    Mr. Tangherlini. That is definitely our interest, Senator 
Cardin, as you point out. Having these employees spread out 
over more than two dozen facilities is not helping the ability 
of the FBI to meet the needs of that agency, but certainly 
causing undue expense because of rent, but also undue damage 
because of the additional environmental impacts. It is our 
interest to consolidate fully the FBI. We also though have to 
see what resources are available to us through the exchange 
process and what resources we would have to be able to bring 
into the project.
    So as we have talked about, we are at the beginning stages 
of identifying the value of the current facility, identifying 
sites, completing a fair, transparent, competitive process.
    Senator Cardin. And I fully support that. I would just be 
pretty clear about this, I think it is pretty clear that 
Congress expects full consolidation and that that is not able 
but I would hope that you would work with Congress rather 
than--we expect full consolidation. Let me just put it that 
way.
    Mr. Tangherlini. Absolutely.
    Senator Cardin. Let me just make one observation, Madam 
Chair, the point that you raised on the Administration's 
actions on the regulatory front which are required to do and 
they are doing absolutely the right thing in regulating carbon 
emissions. We tried a few years ago to pass a different 
framework, framework that would give more flexibility, set a 
cap and then give flexibility on how to reach those caps that 
would be an alternative to the regulatory process under the 
Clean Air Act. We couldn't get that done. Our friends on the 
other side of the aisle decided that that was not to be how 
they wanted to move forward.
    And clearly the American people want clean air. And clearly 
the American people want a clean environment. And the Clean Air 
Act is critically important and you have a responsibility to 
carry out that law. And we should help you. We should help you. 
We try to do that. And we didn't get cooperation, and now we 
are getting complaints.
    So I would hope that we will find ways to find that common 
ground, Mr. Ashe, that you quoted one of the members of this 
committee that I don't want to quote because it will just take 
my time.
    But let me in the 40 seconds that I have remaining, the 
failure to deal with this causes us to concentrate on 
adaptation and resiliency. Significant resources have now been 
made available through the Sandy appropriations, et cetera. You 
talk generally about it, but could you supply us with specific 
programs that you are dealing with under your jurisdictions to 
deal with resiliency and adaptation in light of the realities 
that we now have a different climate pattern?
    Ms. McCarthy. Let me be very brief, because I think others 
might want to interject. But all of the agencies have developed 
climate adaptation plans that have been publicly commented on. 
We are taking those plans to develop implementation strategies. 
But clearly EPA has a number of issues that are impacted, a 
number of concerns that are impacted by climate. Most notably 
certainly water and wastewater infrastructure issues. Those are 
of primary importance and raise the concern about moving toward 
green infrastructure, which keeps water local and can help 
provide more livable and safe communities.
    Mr. Ashe. I think for the Fish and Wildlife Service, 
Senator Cardin, I think probably the most significant relevant 
piece is, we received $102 million under the Sandy supplemental 
funding for resilience, and to look at building resiliency into 
that middle Atlantic coastline as we do restoration from 
Hurricane Sandy. So it provides us really for the first time 
the opportunity not just to rebuild, but to rebuild in a way 
where we are thinking about making that, making our coastal 
infrastructure and our natural, our human and natural 
infrastructure more resilient in the future.
    Senator Boxer. OK, we are going to move on to Senator 
Inhofe.
    Senator Inhofe. Thank you, Madam Chair.
    Ms. McCarthy, in my opening statement I brought up 
something that I have talked to you about before. That is, it 
just seems to me that it is, the delay of placing it on the 
Federal Register until January was done for the political 
purpose that I outlined. You can remember and I can remember 
back in 2012, prior to the election, I named all the different 
rules and regulations and how damaging they would be, would 
come out. So this is not a new issue with me. I just would ask 
you, is there any time that during this process that you or the 
EPA had a conversation with the White House or OMB in terms of 
the timing of the release on the Federal Register?
    Ms. McCarthy. Senator, I will assure you that as soon as 
that proposal was released, we had submitted it to the Federal 
Register office. The delay was solely the backup in the Federal 
Register office. And we frequently asked when it was going to 
come out and how quickly. Because it was available on our web 
page, we wanted to start the formal public process.
    Senator Inhofe. But if you started it, wouldn't that start 
the clock running for the 12-month period?
    Ms. McCarthy. It would have started it an obligation on the 
part----
    Senator Inhofe. Let's assume that for any reason, if you 
submitted that to be placed on the Federal Register, wouldn't 
that start the 12-month clock running? I am asking because I 
don't know.
    Ms. McCarthy. It would have started the obligation under 
the Clean Air Act that says we should complete NSPSs within the 
12-month period.
    Senator Inhofe. So that would actually end up then in 
October, as opposed to in January in terms of when it actually 
comes out.
    Ms. McCarthy. Senator, we had every opportunity to put out 
a reproposal, and we wanted, we tried very hard to get it 
published so that we could start that in the public process.
    Senator Inhofe. OK, that gives us somewhere to go and look 
at.
    I want to mention one other thing, too. Under the 
uninsured, unemployment insurance bill, I had an amendment that 
kind of re-emphasized Section 321(a) of the Clean Air Act, and 
you are familiar with that, that is the one that says the 
Administration shall conduct continued evaluations of potential 
loss or shifts of employment which may result from the 
administration and the enforcement of the provisions of this 
chapter and application of implementation plans. It goes on, 
and it is very specific that the reason for this is they want 
to make sure, or we wanted to make sure way back in 1977 that 
if this took place, these various regulations, not knowing who 
would be in office in the future, that we would know what 
effect they have on jobs. And this is something that I do feel 
that we will, you can comply with section 321(a), in spite of 
the fact that my amendment didn't pass.
    Ms. McCarthy. We are actually doing the best we can to do a 
complete economic analysis. When we do our major rules, we do 
look at employment impacts to the extent that peer-reviewed 
science and modeling allows. Because of Senator Vitter and his 
efforts to have us relook at whole economy modeling, we are 
pulling together an expert panel under our science advisory 
board to continue to look at these issues and to mature that 
science as best we can.
    Senator Inhofe. That is good. But can we say that we would 
not implement these rules until we have that information?
    Ms. McCarthy. We actually provide a significant amount of 
information. Whole economy modeling is appropriate for some 
rules and not others. So we believe we are complying with that 
potion of the Clean Air Act at this point.
    Senator Inhofe. And from this point on, and maybe you have 
done it in the past, but from this point on can we really that 
we are not going to be activating these regulations until such 
time as we know the effect it will have on jobs and the 
economy?
    Ms. McCarthy. Senator, what you can be assured of us when 
we do rules we will do it to the full extent that the science 
is available and the analysis can be done in a way that is 
consistent with all the requirements at OMB.
    Senator Inhofe. Well, that is good. I appreciate that. We 
will be looking for, as the clock moves on, to make sure that 
is being done.
    Mr. Ashe, first I want to thank you on the record again for 
all the cooperation you have been on your word to approve the 
range-wide plan on oil and gas, CCAA, of the lesser prairie 
chicken. We have talked about this for a long period of time. 
You were kind enough to make two trips, not one but two trips 
out to Oklahoma, talk to these stakeholders and again, I just 
appreciate it very much.
    I know Senator Udall, who I thought was here earlier, he 
may have mentioned this, Senator Udall's State and mine are 
working very hard to enroll acreage into the program so that it 
can successfully conserve the species in a way that is 
voluntary. It is just this whole idea, like the partnership 
program that I am so fond of, it doesn't assume that the 
stakeholders don't want to clean up their system and protect 
endangered species. Do you think that range-wide plan can 
ultimately preclude the need for listing under the Endangered 
Species Act?
    Mr. Ashe. Senator, I think I met with the members of the 
range-wide partnership 2 weeks ago in Texas, and I think they 
are poised to make some significant steps forward. They already 
have signed up I think between a million and a half and two 
million acres of oil and gas lands, and they are working on the 
possibility of several million more. So the question is, can 
the implementation of the range-wide plan potentially address 
the threats to the species? Yes. It can potentially. Will it? I 
think it is a question of performance. And I think we have a 
little bit of time left to see if that will work.
    Senator Boxer. Sorry to cut you off, but we have gone over 
quite a bit.
    We are going to turn to Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman Boxer.
    Let me first say to my colleagues on the other side that as 
we solve the problem of carbon, I am prepared to accept that 
there are going to be economic impacts on families that you are 
here to represent. And it is important that in our solution we 
address that concern. Because that is a legitimate concern.
    What I can't accept is that the coal and oil jobs are the 
only jobs that are at stake in this discussion. Not when 
fishermen in Rhode Island are no longer catching winter 
flounder because Narragansett Bay is 3 or 4 degrees warmer in 
the winter. Not when the ski season in the northeast, and 
frankly all the way out to Utah, is shortened. Not when 
foresters in Oregon and across the west are losing their jobs 
to the pine beetle and to the loss of having a vibrant national 
forest. Not when we have the kind of impacts that we are seeing 
throughout the economy. And that is just the economic impacts.
    We also have health impacts in Rhode Island, as asthma and 
other conditions increase. We are losing our State at the 
coastal verge. The houses at Roy Carpenter's beach are falling 
into the ocean. I am not going to ignore those factors out of a 
desire to protect coal and oil jobs. I will work with you to a 
solution that solves our mutual concerns and helps those 
industries. But I am not going to ignore this problem.
    The suggestion that climate change has stopped, I think, 
flies in the face of realistic evidence. If you take a look at 
what is happening and when that claim is made it refers to 
surface atmospheric temperature, one specific measure. But if 
you actually look at a trend line plotted, which is a 
mathematical thing, it is not debatable, it is something that 
mathematicians do all the time, you plot a trend line through 
the data and that is what you get. It is clearly going up. 
There is absolutely no legitimate dispute about that.
    What you can do is you can cherry pick. And that is what 
some of our friends are doing. You can pick different periods 
in that rising step process. And if you pick a certain period, 
it will look like it is flat through that period.
    But it doesn't last. The underlying trend is upward. And 
step after step after step is always up. There are in this 
graph one, two, three, four, five, six separate occasions when 
a denier could say that climate change isn't happening because 
it has gone flat and every single time they would have been 
wrong.
    In light of that, I will ask Ms. McCarthy, on the spectrum 
between wisdom and recklessness, where you put placing a bet 
that this evidence shows that climate change has stopped and 
that we should stop worrying about carbon?
    Ms. McCarthy. Climate change is happening, and I have been 
worried for a while.
    Senator Whitehouse. And one of the reasons that might 
explain this is when you look at what is actually happening in 
climate change, the carbon pollution is hitting our oceans 
pretty hard. Thirty percent of the actual carbon goes into the 
oceans. And when it does, it changes it, and that is why 
Senator Merkley has talked about the wipeouts of the oyster 
hatches in his State. Because acidified water came in, in which 
oysters could not build shells. Thirty percent of the carbon, 
93 percent of the heat, 93 percent of the heat. The atmosphere, 
2.3 percent of the heat.
    So if anything changes just the tiniest bit in the ocean, 
imagine what effect that has in the atmosphere. Something is 
happening that creates that long-term trend oscillation that 
creates those steps that if you cherry pick them, can create 
the false impression that this thing has stopped. But if you 
really look at the problem, you have to look at the role of the 
oceans. And I am telling you, from the Ocean State, it is very 
hard for me, let me ask, does anybody on this panel doubt that 
the oceans are in fact warming? That sea levels are in fact 
rising, and that the ocean is in fact becoming more acidic? 
Indeed, is there a legitimate scientific debate on those three 
subjects? There is none, correct? There is none. The record 
will reflect that there was unanimous agreement from the 
witnesses.
    Senator Sessions. The record will reflect nobody spoke up.
    [Laughter.]
    Senator Whitehouse. OK, let's go ahead and have them all 
say it, if that is what the Senator wants.
    Mr. Ashe. I don't believe on those points that you raised 
there is, those are based on observations.
    Senator Whitehouse. It is measurement, not theory, correct? 
Does everybody agree it is correct? Speak now, or else I am 
going to count you as yes. I am trying to save time here.
    Ms. McCarthy. We agree.
    Mr. Tangherlini. And I defer to my colleagues who actually 
know something about the subject.
    Senator Whitehouse. General Services Administration is not 
expert in this. I can appreciate that.
    Last question. A ton of carbon that is released from a 
power plant, does that do more or less harm than a ton of 
carbon that is released from a refinery, a kiln or a boiler?
    Ms. McCarthy. Same.
    Senator Whitehouse. Same. So at some point, we should 
probably start looking at refineries, kilns and boilers that 
release tens of thousands of tons of carbon as well?
    Ms. McCarthy. Point taken, Senator.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you, Senator.
    We are going to call now on Senator Barrasso. I am going to 
give the gavel to Senator Whitehouse while I step out for just 
a moment.
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. McCarthy, I would like to follow up on what Senator 
Vitter had asked on carbon capture and sequestration and your 
new proposed rule for new coal-fired power plants. This week a 
Bloomberg news story ran entitled EPA Assertions on Carbon 
Capture Viability Sparked Concerns by White House Officials. 
The article quotes from interagency comments prepared by the 
White House Office of Management and Budget. The article quotes 
the White House OMB as saying about your new rule that ``EPA's 
assertion of the technical feasibility of carbon capture relies 
heavily on literature reviews, pilot projects and commercial 
facilities yet to operate.'' It goes on to say ``We believe,'' 
this is the White House saying ``We believe this cannot form 
the basis of a finding that CCS on commercial scale power 
plants is `adequately demonstrated.' '' And as you know, and as 
was stated before, the law requires that emission control 
performance standards must be ``adequately demonstrated.''
    So the White House is saying that carbon capture 
sequestration is not adequately demonstrated that you are 
recommending. So my question is, what does the White House know 
that you haven't acknowledged? And is the agency going to speak 
more definitely on this topic?
    Ms. McCarthy. Senator, I don't know what you are referring 
to, but you can be assured that this proposal went through 
interagency review. You can be assured that OMB cleared the 
proposal. And I am very confident that you will see that CCS is 
proven to be technically feasible in that data that we have 
provided.
    Senator Barrasso. I am just going to have to disagree with 
you. The White House apparently disagrees with you as well 
through the OMB. And it is not just one person who is making 
that comment. If you take a look at other testimony in the 
House from Assistant Secretary of Fossil Energy in the 
Administration testifying that commercial technology currently 
is not available to meet the EPA's proposed rule, the cost of 
current carbon dioxide capture technology is much too high to 
be commercially viable, places the technology at similar 
economic thresholds of alternative clean carbon. And it just 
goes on and on about the lack of viability and availability of 
what you are proposing. It just seems to be a level of denial 
by the EPA as to what is actually available, and the White 
House seems to have called you on that. So I would be 
interested, again, on your getting back to me on the specifics 
as you look into it some more.
    I would like to read from a story from yesterday entitled 
E-mails Show Extensive Collaboration between EPA, 
Environmentalist Organizations, Top Officials Coordinate 
Messaging, Help Groups Gather Petitions. The article stated 
that Deputy EPA Administrator Bob Perciasepe attended an April 
24th, 2012 meeting with 24 leading environmentalist groups, 
including the Environmental Defense Fund, the Sierra Club, 
Natural Resources Defense Council, according to a notice of the 
meeting sent by his assistant, Terry Porterfield. The article 
quotes EPA employee Porterfield's e-mail to the environmental 
groups. The e-mail says ``The purpose is to create a photo op 
and narrative beat for the comment-gathering efforts on the 
issue,'' Porterfield wrote. ``Groups will use materials from 
the event to communicate with supporters and recruit additional 
comment signers via newsletters, e-mails and social media.''
    Is this the standard practice of the EPA, to work with 
environmental groups to coordinate on getting comment signers 
that are favorable to your proposed policies?
    Ms. McCarthy. It is very common practice for EPA to meet 
with a variety of stakeholders. Our agendas and our meetings 
are public. I think if you look at the history of EPA, we meet 
as much with industry groups as we do with environmental 
groups. It is our job to understand what concerns people have 
and how we can work with them to make sure we are doing our job 
appropriately.
    Senator Barrasso. This doesn't sound like you are looking 
for input, though. These e-mails that have been found seem to 
say your goal with meeting with these specific groups is to 
recruit additional comment signers via newsletters to generate 
support for positions that you are taking and some of those 
most liberal of all environmental activist groups, rather than 
actually bringing in input.
    Ms. McCarthy. I am happy to take a look at that, Senator. I 
haven't read the e-mail, I don't know what it is referencing. 
But there are often times when we have groups that come in and 
give us petitions.
    Senator Barrasso. Is it proper behavior for the EPA to go 
out with these groups for the sole purpose of recruiting 
additional comment signers to then go ahead and support your 
position?
    Ms. McCarthy. I certainly don't want to interpret what you 
just read, Senator, I don't know what the occasion was. I am 
sorry.
    Senator Barrasso. Do you believe it is proper activity on 
behalf of the EPA?
    Ms. McCarthy. It is appropriate for EPA to connect with all 
of our stakeholders.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. Senator Carper.
    Senator Carper. I would just say to my colleague, I 
mentioned, I don't know if you were here, the North American 
Auto Show, a place I have gone for many years, a long time, 
built more cars, trucks, vans per capita than any other State. 
We had a Chrysler plant, a GM plant, we lost them both, within 
months of each other, just a few years ago. I still go to the 
Detroit Auto Show, and I was very pleased to see EPA 
represented there. As you know, a major source of air pollution 
in our country is our motor vehicles. Some people might 
criticize and say, why would you go the North American Auto 
Show? It is because some of the folks that are most important 
for our economy, and frankly, people that they need to be not 
just regulating but having a conversation with were there, were 
there, from the top leadership of these companies all the way 
down. That is the kind of thing I commend you for doing and I 
hope you will continue to do more of that. I think you would 
have been encouraged by that, had you been with us. I want to 
invite you to go with us next year.
    I have a question, maybe just one or two here. 
Administrator McCarthy, with respect to new source performance 
standards, I just want to take a minute or two to focus on 
EPA's efforts to implement carbon pollution standards for power 
plants. We call this new source performance standards, as you 
know. I believe Congress established new source performance 
standards in the 1970 Clean Air Act. It is nothing new. And 
your agency has had a long history of implementing this 
standard. Is that correct?
    Ms. McCarthy. That is true.
    Senator Carper. Can you tell us what the agency's 
experience has been with these types of standards? How has the 
agency worked with industry and stakeholders already and 
expects to do so into the future when it comes to these 
greenhouse gas standards? Third part of the question is, what 
has EPA's past experience been when determining what is 
adequately demonstrated technology when determining new source 
performance standards? Those questions, thank you.
    Ms. McCarthy. Well, Senator, thanks for the question. First 
of all, the Agency has had a long history in developing new 
source performance standards. We have done dozens and dozens of 
industry sectors. There are two types. One is looking at new 
facilities and it is very clear that it is intended to make 
sure that we continue to develop advanced technologies moving 
forward, so we take advantage of the best and brightest 
technologies and move our innovative technologies more broadly 
into the market.
    The work that we do in existing facilities has also been 
very robust. Our challenge there is to make sure that we work 
with States to develop guidance and then they develop plans to 
do their job. We have had, when I looked at these standards, 
the standards that, the proposal that we put out for 111(b), 
which is new sources, it was done exactly the same way that we 
have done dozens and dozens of those. We looked at the data 
available, we looked at the technologies, we made a 
determination that CCS was the best system for emission 
reduction for coal facilities moving forward, because it was 
technically feasible, it would amount to significant emission 
reductions. And it would continue to effectively promote the 
development and deployment of advanced technologies.
    So we did it the same way we always do, which for a long 
time we have been doing very successfully and businesses 
continue to grow.
    Senator Carper. All right, thanks.
    A question if I could for Ms. Sutley. I think you mentioned 
in your testimony when I was out of the room, the President's 
task force on climate preparedness and resilience, in which 
Governor Jack Markell is a participant, as you may know, how do 
you expect the valuable information collected from this task 
force will be passed down and implemented throughout our 
Federal Government?
    Ms. Sutley. Thank you, Senator. The President directed us 
to establish a task force of State, local and tribal elected 
leaders, and we are grateful to have the participation of 
Governor Markell. This is a very important task force for us in 
helping to ensure that the kinds of policies and programs that 
the Federal Government as a whole is considering in terms of 
making sure that we are prepared and resilient in the face of 
the changing climate will help States, tribes and 
municipalities to prepare their communities to deal with the 
impacts of climate change.
    We had our inaugural meeting and a lot of good ideas and we 
are having a second one very shortly, looking at different 
subject matters. We started out looking at disasters and 
resilience preparedness, we will be looking at infrastructure 
next. So the input and the recommendations that we gather from 
that group will be very helpful in helping us to look, 
governmentwide, through our resilience council at the things 
that the Federal Government can do, not only to prepare the 
Federal Government to deal with the impacts of climate change 
and the impacts on emissions, facilities, but also to ensure 
that our communities are prepared.
    Senator Carper. My time is expired. Mr. Tangherlini, very 
nice to see you twice this week, and Gina as well. Again, nice 
to see you again. Thank you all for your testimony and for the 
good work that you are doing. God bless. Thanks.
    Senator Boxer. Senator Sessions.
    Senator Sessions. Thank you, Madam Chair. I would certainly 
agree with the 97 percent as you framed it, that human action 
has caused more CO<INF>2</INF> to be emitted into the 
atmosphere. I don't doubt that one bit, and I don't think any 
scientists do. But in Congress, in 1974, when they passed the 
Clean Air Act, did not prohibit carbon dioxide. Global warming 
was not considered at the time, I don't believe any debate 
considered that question. It came before the Supreme Court, and 
what the Supreme Court said, Ms. McCarthy, is that the EPA 
should have to make an endangerment finding. You have made that 
endangerment finding. That was a five to four decision, by the 
way, only five to four, and it is coming back before the Court. 
And you are going to have to justify why plant food, 
CO<INF>2</INF>, is a pollutant covered in 1974. And I would 
note, Congress has never since then ever passed legislation 
that prohibits CO<INF>2</INF> into the atmosphere, directly 
doing so. And Senator Whitehouse produced a chart which showed 
surface temperature data, which he described as surface 
atmosphere. But I am not sure whether--but what the IPCC models 
use, what scientists have referred to over the years at 
atmospheric temperatures are taken at the lower troposphere. 
This is what our chart shows, the kind of data we show, that 
the models aren't reaching the temperature increases on that 
that is predicted there. Haloes of heat around many land 
stations that record temperatures and they are not accurate, as 
accurate as the troposphere temperatures. That is what the IPCC 
recognizes.
    Second, the chart suggested 93 percent of the heat is 
absorbed by the oceans, but it doesn't answer the question 
about how the amount of temperature change in the oceans. 
Evidence on panel will suggest the oceans may have warmed, but 
only by 5/100ths of a degree over the last 50 years. That is 
the chart Dr. Dessler will offer, and he is a Democratic 
witness who will be testifying here today.
    And Mr. Ashe, you stated, more than your written statement 
says, that we have had more storms in America. And if we don't 
have common ground, if we are going to be able to reach and 
discuss issues together, we have to agree on what the problem 
is, and we have to be honest about the facts. Dr. Pielke 
testified here just a few months ago, supports President Obama, 
this is what he found about disasters and storms: ``It is 
misleading and just plain incorrect to claim that disasters 
associated with hurricanes, tornadoes, floods or droughts have 
increased on climate time scales either in the United States or 
globally.'' You said directly opposite that.
    Have you conducted any investigation yourself of storms and 
disasters? Have you done an independent review of that? Yes or 
no. I presume you haven't.
    He went on to say globally, weather-related losses have not 
increased since 1990. He said U.S. hurricanes have not 
increased in frequency or intensity since 1900. He said that 
since at least 1950, the intensity and frequency of floods in 
the United States has not increased. He went on to say the 
frequency and intensity of tornadoes has not increased since 
1950 and droughts have not increased globally for half a 
century. So do you still stand by your testimony? Have you done 
independent research to that effect?
    Mr. Ashe. I am not a researcher. I have not done 
independent research, Senator. I think what I was speaking of 
in my testimony, in my oral testimony, is observation.
    Senator Sessions. Well, I would just say that I hope you 
will review that and be accurate when you discuss as a public 
official the facts, when you relate them to the American 
people. And I believe your facts are wrong.
    Now, Ms. McCarthy, the President has said that we have had, 
repeatedly, at least three times in recent months, that the 
temperature around the globe is increasing faster than was 
predicted 10 years ago. I have written you about this. Is that 
accurate or not?
    Ms. McCarthy. I do know some of the facts that I can 
provide for you.
    Senator Sessions. No, I'm just asking you, is that an 
accurate statement? Has it increased faster than predicted or 
not?
    Ms. McCarthy. I do not know what the President's context 
was for making that. I do know that if----
    Senator Sessions. Well, do you believe the temperature has 
increased faster than predicted? Do you believe that the 
temperature in the United States has increased faster than 
predicted in the last, worldwide, than 10 years ago?
    Ms. McCarthy. I believe that 2010 was the warmest year on 
record ever, and I believe that 2012 was the warmest----
    Senator Sessions. Now, I want to know whether or not you 
believe that data shows that the temperature around the globe 
is increasing--please let me ask you, do I not have the right 
to ask the director of EPA a simple question that is relevant 
to the dispute that is before us?
    So I want to ask, is the temperature around the globe 
increasing faster than was predicted even 10 years ago?
    Ms. McCarthy. I can't answer that.
    Senator Sessions. Why can't you answer that?
    Ms. McCarthy. Because it is a narrow statement and a very 
large wealth of evidence and information.
    Senator Sessions. Do we not have the troposphere 
temperature reports that even IPCC recognizes and do they not 
show that it is not increasing anything like what the 
predictions were? Can you answer that question?
    Ms. McCarthy. Senator, I don't dissect the information and 
provide it to you in a way that claims that I am a scientist 
and it is a valid way to look at it.
    Senator Sessions. You are asking us to impose billions of 
dollars of cost on this economy and you won't answer the simple 
question of whether it is an accurate statement or not?
    Ms. McCarthy. I just look at what the climate scientists 
tell me. I don't dissect that information in ways that would 
impress you, but certainly I am not qualified.
    Senator Sessions. Not me. Climate scientists are telling 
you it is not warming to the degree predicted, in fact, it 
hasn't really warmed at all in the last 15 years.
    Thank you, Madam Chairman, my time is up.
    Senator Boxer. I am going to give everybody an extra 2 
minutes like I gave Senator Sessions. So you are going to get 7 
minutes. Senator Fischer, Senator Boozman, and then we will 
each have an extra 2 minutes to close.
    Senator Fischer. Thank you, Madam Chair. I hope I won't 
take that amount of time, since we have another panel today.
    Senator Boxer. We are happy to have you do it.
    Senator Fischer. Thank you.
    Ms. Sutley, you spoke about the United States should have a 
global response because we are facing a global problem. In your 
testimony you mentioned working through the United Nations. 
What specifically can you tell us that the Obama administration 
is doing in that regard, and working through the United 
Nations, in your words?
    Ms. Sutley. We participate in the U.N. Framework Convention 
on Climate Change, which involves, I believe, over 190 
countries. The U.S. continues to be a participant in that, and 
the current activities are around developing an agreement for 
post-2020, addressing climate change with the aim of reaching 
an agreement in 2015 about what that might look like. So the 
United States as many other countries is engaged in those 
discussions right now.
    Senator Fischer. What I am looking at are specific actions. 
You say that to leverage more ambitious action by other 
countries that the Administration needs to step forward. I know 
it is always helpful to work with other nations, it is always 
helpful to have conversations. But I want to know specifics. 
What are we doing to help other nations? Are we investing 
resources? Are we providing scientists? What are we doing? And 
what is involved in the cost? Or are we just in conversations 
right now?
    Ms. Sutley. There are a number of different efforts 
underway, both bilaterally and multilaterally, addressing a 
number of the drivers of climate change. For example, and 
perhaps the Administrator can talk a little bit more about 
this, working through existing international forums to deal 
with hydrofluorocarbons, which have a global warming potential 
as well as working on issues around clean energy and promoting 
clean energy and technologies around the world.
    Senator Fischer. Perhaps you and the Administrator could 
provide me with some examples, and if there are costs involved, 
I would be interested in knowing that as well.
    Ms. Sutley. Yes, certainly.
    Senator Fischer. Thank you very much.
    Also, Ms. McCarthy, the EPA regulations on coal-fired power 
plants are required by law to be technologically viable and 
commercially available. While EPA has insisted publicly that 
carbon capture and storage technology is technologically 
viable, there is serious doubt that EPA officials actually 
believe this to be true.
    I am going to highlight a 2012 e-mail exchange that was 
produced through a Freedom of Information Act request between 
John Coequyt, head of the Sierra Club's Beyond Coal campaign, 
and EPA's Michael Goo and Alex Barron, both in the agency's ops 
policy at the time. Coequyt forwarded an article to Goo and 
Barron regarding your comments on proposed CCS regulations. In 
the article you were quoted as saying, ``While it is a 
significant economic lift, the proposed standard will provide 
investment for new technologies. CCS is technologically 
viable.''
    The headline then read, Coal To Remain Viable, says EPA's 
McCarthy. In forwarding this article to EPA's Barron and Goo, 
Mr. Coequyt wrote, ``Pants on fire.'' Do you have any idea why 
he would say pants on fire? We all know the saying that goes 
with that. Do you have any idea what that supposedly is about?
    Ms. McCarthy. No, I don't.
    Senator Fischer. Do you stand by your statement that, I 
believe you said it earlier today, that the CCS is viable?
    Ms. McCarthy. Very much so.
    Senator Fischer. The EPA redacted Barron's very brief 
comment then to Goo in response to another article 5 months 
article from Politico, with the headline Will EPA's Greenhouse 
Regs Wipe Out Coal. And EPA did redact that comment, apparently 
no more than three or four words in total on the media article, 
as deliberative, which on its face is a curious use of that 
process exemption, to keep information from the public under 
the Freedom of Information Act. By doing so, EPA nonetheless 
indicates that it is deliberating whether its climate 
regulations will wipe out coal. I think the American public 
deserves to know, does EPA believe that the CCS is viable? 
Again, could you answer that?
    Ms. McCarthy. Senator, when I was Assistant Administrator, 
I believed that the information supported that CCS was viable 
and was appropriate as a basis for that system of emission 
reduction. As Administrator, I retain the same assessment of 
the facts.
    Senator Fischer. Can you tell me why that e-mail was 
redacted?
    Ms. McCarthy. I have no idea, Senator. I have no idea.
    Senator Fischer. Could you look into that and provide me 
with a copy of that e-mail?
    Ms. McCarthy. I certainly will look into the issue. If they 
were appropriately redacted, then that is fine. But I certainly 
understand that there may be questions raised. But there is a 
lot of jibber jabber in an agency that is that large. But I 
want to assure you that the policy, the people making those 
policies and making those technical judgments were the people 
that were investing their time and providing input into this 
rule.
    Senator Fischer. I know we all receive e-mails and we have 
no control over that. But it is disconcerting when information 
like that does become public and then we have a Government 
agency going through a process of really blocking that freedom 
of information that I would hope would clarify statements like 
this. So I look forward to seeing that.
    Ms. McCarthy. Senator, we certainly want to be as 
forthcoming as we can. It is an issue that has come up before 
on this committee. We will do our best job to provide you these 
e-mails, regardless, and only redact when it is appropriate to 
do so.
    Senator Fischer. Thank you so much.
    Senator Boxer. OK, that was 7 minutes, and Senator Boozman, 
you have 7.
    Senator Boozman. Thank you, Madam Chair.
    There was some criticism about a person that had done a 
study that was funded by the Koch brothers. I guess my problem 
with that is, you look at the product and then it is peer-
reviewed and this and that, and you criticize it based on the 
work. Do you all ever use studies that rely, that are being 
done by environmental groups, funded by environmental groups? 
Is that a criterion for you as to whether or not it is a good 
paper or bad paper?
    Ms. McCarthy. We actually look at the study itself and try 
to look at whether the analysis is correct and whether the 
science is strong.
    Senator Boozman. I think all of you have people that have 
worked for environmental groups in the past, different 
Administrations, but environmental groups. And the idea that 
you can produce a product, in fact we have witnesses coming up 
that are funded by outside groups one way or the other. But the 
idea that testimony or a paper can't be produced because you 
are a consultant for a various entity or whatever I think is 
really not a good situation. We really need to push back from 
that.
    The other thing is, and in regard to just studies in 
general, it is really hard, we really do want to be helpful in 
the sense, we have some real problems to solve in the 
environment. It is helpful, though, it is difficult to do that 
if you don't have access to the materials and the scientific 
studies that allow you to make really wide sweeping decisions 
in that regard.
    So will you commit to us that we will have those studies 
available so that we can see what the basis of your rationale 
is?
    Ms. McCarthy. Senator, I assume you are talking to me?
    Senator Boozman. Yes, ma'am.
    Ms. McCarthy. We have been providing information to the 
extent that we have it, we have already provided information 
that you have requested.
    Senator Boozman. OK. So the studies that we would like and 
this and that, you will give us those completely?
    Ms. McCarthy. To the extent that they are in the control of 
EPA, of course, and to the extent that we can work together on 
those, we are more than happy to do that.
    Senator Boozman. Senator Whitehouse talked about the 
oceans, which are having some real problems right now, and the 
result to the fishermen. Is it your opinion that if we did pass 
the policies that the President is proposing, that you are 
proposing, would that solve the problems of the oceans that he 
is describing?
    Ms. McCarthy. Me again? Oh, I am sorry. I keep thinking you 
are looking at me.
    Senator Boozman. I am sorry.
    Ms. McCarthy. Climate change is a global problem. It 
requires global solutions. There is no question that 
international effort is required. The issue is, should the 
United States take action on its own that it can do that makes 
sense, that can be cost effective and that will help us grow 
economically. I think the President indicated that that answer 
is yes.
    Senator Boozman. But the reality right now is, in order for 
that to be effective, we are depending on the Chinese and the 
Indians and people like that who basically have said that they 
are not going to participate. Mr. Ashe.
    Mr. Ashe. First of all, with regard to what Senator 
Whitehouse said, I think that when we look at natural resources 
like the ocean resources, that we have to realize that climate 
change is an overarching effect. So it exacerbates many 
problems that already exist within fisheries management and 
wildlife management, problems of habitat fragmentation and 
degradation and contaminant loading and invasive species. So it 
adds another layer of stress. So I think the things that we are 
talking about in terms of dealing with climate change will help 
address a major source of uncertainty and disruption in those 
systems and will certainly help secure our fisheries resources 
for the future. I think it is an important step for us to take 
to learn more and reduce the level of uncertainty surrounding 
this issue.
    Senator Boozman. Ms. McCarthy, are the models that were 
relied upon in developing the social cost of carbon estimates 
published and available on EPA's Web site?
    Ms. McCarthy. I don't know the answer to that question, 
Senator. I can get back to you. That was work that was 
primarily organized by the Office of Management and Budget, so 
that work was not a product of the EPA, although I am sure our 
technical and economic folks participated in those discussions. 
I do know they are available, they are public, the models are 
public and they have been appropriately peer-reviewed.
    Senator Boozman. OK, so the part that you did, the EPA, it 
is not available on the Web site either?
    Ms. McCarthy. Any work that EPA would produce would be 
publicly available for sure. I just don't know whether those 
particular models appear on our Web site or whether they are 
part of the OMB Web site.
    Senator Boozman. All right. The other thing, Mr. Ashe, I 
guess one of the problems I have also is that we hear a lot 
about forest fires, we hear a lot about beetles and things like 
that. The reality is, and I have heard many, many hearings and 
testimonies through the years, the reality is a lot of that 
stuff is poor management in the sense we had a hearing not too 
long ago and there was testimony to the fact that the areas 
that were privately managed out west where you had fire, some 
of the areas that are publicly managed are tinder boxes. The 
beetle infestation has been going on for a long time. And 
certainly climate has stuff to do with that.
    But I do think that there is a tremendous, let's jump on 
this and this is all, the reality is, when you have a forest 
where you have, instead of 10 or 20 trees, whatever it can 
support, if you have 150 trees taking up the nourishment that 
makes it more susceptible to disease and things like that. Can 
you comment on that?
    Mr. Ashe. Just quickly, I would say that certainly 
management can have a role to play and certainly can make a 
difference. But you have to realize that the public lands are 
managed for a much broader range of use. So if I have a private 
forest that is managed for short rotation and so I am just 
cycling those trees off and harvesting that timber on a regular 
basis, then mountain pine beetle is going to be less of a 
concern for you. Where in our public lands and like wildlife 
refuges in national forests where we are managing land for 
longer term, then pine bark beetle and other infestations can 
be more of an issue.
    But I agree with you that management is part of this 
solution. We have to understand what that proper management is.
    Senator Boozman. Thank you, Madam Chair. I don't want to 
get gaveled on.
    Senator Boxer. Well, you have 28 more seconds with which to 
continue.
    Senator Boozman. No, I will get some credit out of you and 
yield back my time.
    Senator Boxer. Major credit, that is true.
    So now we are going to complete this first panel, which 
started a very long time ago, it seems like yesterday. We are 
going to do it this way. I am going to give Senator Whitehouse, 
take my 2 minutes, Senator Vitter, then Senator Inhofe, Senator 
Sessions and then I will close. Everybody has 2 more minutes. 
So let's start with Senator Whitehouse.
    Senator Whitehouse. I will just take a little bit of my 
time to respond to Senator Sessions' suggestion that one 
scientist says that climate change isn't really happening and 
that there really isn't an association with storms. I just want 
to put that into context.
    There actually is a peer-reviewed scientific consensus out 
there about this. It is massive. It is not unanimous, science 
is rarely unanimous. There are eccentrics, there are outliers, 
there are people who have non-mainstream opinions and to be 
blunt, there are people who are in concert with the polluting 
industries and delivering phony science, the way they did on 
tobacco, the way they did on a variety of other public health 
initiatives.
    So when people pick out what one particular scientist said, 
it is important to look at that in the context of where the 
bulk of the science is. And if you don't believe science, then 
perhaps my friends from the other side will believe big 
corporations.
    And one really big corporation that cares a lot about 
climate's effect on storms is Munich Reinsurance. Not only 
Munich Reinsurance, but the entire reinsurance industry and the 
property casualty insurance industry are virtually up in arms 
about what climate change is doing to their risk profile. Here 
is a graph that Munich Reinsurance puts together, showing the 
increase in natural catastrophes worldwide that are associated 
with climate change, A, in the sense that they are happening 
while climate change is happening, but B, and that we know some 
underlying science. We know, for instance, it is not disputed, 
that if you warm the ocean it creates more energy going up into 
storms and that makes stronger storms when they hit the shore.
    So much of the science is was past debate. And if you 
simply take the science as way past debate and apply it, you 
draw the same conclusion. Are there eccentrics and outliers who 
can be quoted? Sure there are. But for this committee to rely 
on anything other than the massive consensus of peer-reviewed 
science, supported by not just environmentalists, but let's 
look at the people who are asking us to take action, Coke and 
Pepsi, Ford and GM, Nike, Wal-Mart, Apple, the Joint Chiefs of 
Staff, the U.S. Conference of Catholic Bishops, the Garden 
Clubs of America. At some point, people have to come to the 
realization that the scam that is being perpetrated has got to 
come to an end. And I hope that that time comes soon.
    Senator Boxer. Thank you, Senator. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. I just want to make 
a brief comment about science, too, and I think it is a useful 
transition to the next panel. I want to underscore Senator 
Wicker's and some others' comments. I think we do a real 
disservice to science and facts the way we often do a 
cartoonish gloss over these issues, which are often very 
complicated and subtle. It doesn't mean we don't need to figure 
it out, but we need to understand the real facts. And I would 
urge all of us to try to do that. Let me just use a couple of 
examples.
    Senator Boxer said 97 percent of scientists, clearly, it is 
a clear consensus, 97 percent. Well, 97 percent is very catchy. 
But what is the underlying question? Human activity is causing 
increased CO<INF>2</INF> emissions. Well, I don't know why that 
is not 100 percent. I agree with that. I think everybody on 
this panel agrees with that. So let's mark it as 100 percent. 
That is not the issue we are debating.
    Give you another example. Dan Ashe said in his testimony 
average surface temperatures are increasing. Interesting, that 
is not in your written testimony. Is that true since 1998?
    Mr. Ashe. Senator, I think that average surface 
temperatures are increasing, as Senator Whitehouse said.
    Senator Vitter. Is that since 1998?
    Mr. Ashe. I don't know, I am no looking at the record since 
1998. I am looking at the temperature record, the historical 
temperature record, average surface temperatures are 
increasing.
    Senator Vitter. Over what period of time?
    Mr. Ashe. Over a period of time that is relevant for 
natural resource management, which is looking at since the 
beginning of the industrial revolution.
    Senator Vitter. My point is, we need to be precise and we 
don't need to game words. You also said sea ice and glaciers 
are melting. Did you mean net, and did you include Antarctica 
which is a continent, or is that not sea ice?
    Mr. Ashe. Sea ice and glaciers are melting. It is 
indisputable, Senator Vitter, indisputable.
    Senator Vitter. Are you saying net?
    Mr. Ashe. I am saying sea ice and glaciers are melting, 
that is what I said, it is indisputable.
    Senator Vitter. Well, they are always melting sometimes and 
elsewhere they are building. Are you claiming that that is net, 
and are you counting Antarctica, which is a continent?
    Senator Boxer. We really need to move on.
    Senator Vitter. If you could provide that for the record, 
because that is the level of detail and disciplined discussion 
that I think we need.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Thank you. Let me try to get this out 
really quickly.
    Ms. Sutley, several months ago the Corps of Engineers 
testified to Congress that it would not consider the life cycle 
of greenhouse gas emissions of coal exports when considering 
the environmental impact of a coal export facility licensed to 
the west coast. They said it would be outside the Corps' 
control and responsibility for the permit applications. 
Conversely, as you know, I believe, Columbia University's 
Center for Climate Change Law released a report in August 
saying that increased sales of coal in Asia are in effect the 
Corps' decision, meaning that they should be the scope of NEPA. 
Do you agree with Columbia or do you agree with the Corps?
    Ms. Sutley. Thank you, Senator, for the question. We agree 
that agencies need to look at greenhouse gas emissions when 
they looking at their NEPA analysis.
    Senator Inhofe. I am really sorry, but we are in 2 minutes, 
and I need to have that answer for the record. But I would like 
to ask you this to see if you would be in a position to let us 
know. Is there a date certain for finalizing the guidance for 
the including life cycle greenhouse gas emissions and the NEPA 
analysis?
    Ms. Sutley. Senator, we continue to work based on the draft 
that we put out in 2010, we are working on revising that but I 
don't have a date certain yet.
    Senator Inhofe. If you decide you are going to have one, 
would you try to let us know for the record?
    Ms. Sutley. Yes, we will.
    Senator Inhofe. We would appreciate that.
    Let me just make this one comment. I know people get 
hysterical on all this stuff, but when Senator Whitehouse 
talked about the just one scientists, I have 700 scientists I 
listed in a speech on the Senate floor, probably 8 years ago, 
and these are scientists, Richard Lindzen from MIT, these are 
top scientists, totally refuting the assertion that is being 
made on which we are spending hundreds of billions of dollars. 
Just the bills that they try to do through legislation on cap 
and trade, that range, and no one disagrees with this, would be 
between $300 billion and $400 billion a year, and now through 
regulations it would be even more than that. So that cost is 
there.
    In accordance with your predecessor, Lisa Jackson, when I 
asked the question, if we pass these things here, is it going 
to lower worldwide greenhouse gases, the answer was no, because 
this only affects the United States. This is not where the 
problem is, it is in China and India and Mexico, in other 
places. So I just want to say that we are talking about the 
largest tax increase in the history of this country if we were 
to go through with what they are trying to do through 
regulation that they could not do through legislation and not 
get anything for it. That is my question.
    Senator Boxer. OK. Well, there is no question time. We have 
2 minutes, you have gone over by a minute.
    Senator Sessions. Two minutes.
    Senator Sessions. Thank you, Madam Chairman. One of the 
things that we have heard today a good bit is carbon pollution. 
That is sort of a new phrase we are seeing a lot. You might 
wonder why that is happening. I think there is a great deal of 
unease in the pro-global warming community about what the 
Supreme Court is going to do. The Clean Air Act of 1970, I said 
earlier 1974, it was 1970, did not ban CO<INF>2</INF> and did 
not even consider the possibility of global warming, Ms. 
McCarthy.
    So now the Supreme Court said you should make an 
endangerment finding and you have. And without any explicit, 
express authorization from the elected representatives of the 
American people, under this decision you have made, the 
Environmental Protection Agency can go into any American's 
backyard, prohibit their barbecue grill, eliminate their 
lawnmower. You have that power. It is one of the greatest 
expansions of Federal power without explicit congressional 
authorization in the history of the Republic. You are able to 
go in any place where any carbon is produced and regulate that, 
because you say it is a pollutant. And the Supreme Court ruled 
five to four that you should make a formal finding on that. 
They have not ratified our decision. And with the altering of 
the predictions and the global warming projections that are not 
coming true, I would hope that they would not allow you to have 
that power, finally, when they finally rule on it.
    So I want to say, Congress has never authorized such an 
action. They would never authorize it today. And you should be 
really careful about the assertion of power that you have.
    I thank the Chair.
    Senator Boxer. Thank you.
    Just for the record, the D.C. Court recently upheld the 
ruling of the Supreme Court. So let's just stop relitigating 
something that went all the way to the Supreme Court.
    Senator Sessions. It is going back to the Supreme Court.
    Senator Boxer. I don't want to be interrupted, please. I 
didn't interrupt you.
    Senator Sessions. You used the power of the Chair to 
dispute what I had said.
    Senator Boxer. I did not.
    Senator Sessions. I felt I had a chance to respond.
    Senator Boxer. I will use freedom of speech to correct 
folks who I believe are wrong and I will defend your freedom of 
speech to do the same. Now, let's be clear. D.C. Court upheld 
this, period, and it is moving forward. And if you don't act, 
you are going to be sued. And the American people want this 
done.
    I just looked at the polling. Only 3 percent of younger 
voters don't believe climate change is happening. You look at 
Republicans. The latest poll I saw said that a vast, well, well 
over 50 percent said that if you are a climate denier, you are 
out of touch. So I wish this committee would find the common 
ground with the American people. Because when you deny you are 
doing just what people said when they said cigarette smoking 
doesn't cause any harm.
    A couple of other things, 1980 to 1990, hottest decade on 
record until 1990 to 2000, which became the hottest decade on 
record, until 2000 to 2010, which is now the hottest decade on 
record. That is not me. That is not EPA. That is NOAA. In 2008, 
the Bush administration used a form of the social cost of 
carbon on fuel economy rules. They used it on air conditioner 
rules, efficiency rules, and frankly, I never heard a peep out 
of anybody at that time.
    Now, I don't know why my clock isn't moving, but it should 
be moving, it should be down to a minute.
    Let me just close with this. We know what happens when the 
environment is thrown under the bus. It is called China. And I 
am going to put into the record today Airpocalypse, Smog Hits 
Beijing at Dangerous Levels. On Thursday residents of Beijing 
woke up with splitting headaches. Bottom line, 1.2 million 
Chinese died in 2012 because of air pollution.
    Now, I will do everything in my power to make sure that 
this Clean Air Act, which passed in this very sacred room, so 
many years ago, in a bipartisan way, that that Clean Air Act is 
upheld and that everything we do is consistent with the law. 
And this one went all the way to the Supreme Court. And the 
fact of the matter is we have to make sure we uphold it.
    Now, that is the end of this panel. What I want to make 
sure, because Senator Vitter is very anxious to have another 
hearing about Mr. Beale. And I am not.
    [The referenced material follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Vitter. To have a hearing about Mr. Beale.
    Senator Boxer. We had a briefing. He wants a hearing, in 
addition to the briefing, in which he asked 50 questions. It is 
his right to ask that. What I am going to ask you, 
Administrator McCarthy, since no one asked you about that, 
although it was in the scope of hearing, would you please 
answer the question and take a week to do it, what is in place 
now, we know that this con man is going to jail. But what is in 
place now at the EPA to make sure this never happens again? If 
you would get that to us, the Chairman and the Ranking, and 
members of the committee, in about 2 weeks, can you do that?
    Ms. McCarthy. Yes, sure.
    Senator Boxer. And then we will look at whether or not we 
need a hearing.
    I want to thank the panel. It has been a tough morning for 
you. You handled all the questions, I think, with great 
integrity. Please now go back to your normal work and we will 
call up the second panel. And if the second panel can come up 
very quickly, because the caucuses have meetings shortly.
    OK, if everyone could leave, we are going to get going 
right now. Thank you to the first panel. We are getting 
started.
    And we are going to start with Hon. Bill Ritter. You had a 
wonderful introduction from your Senator, so please, sir, 
proceed. You are the Director of the Center for the New Energy 
Economy, Colorado State University.

 STATEMENT OF HON. BILL RITTER, JR., DIRECTOR, CENTER FOR THE 
         NEW ENERGY ECONOMY, COLORADO STATE UNIVERSITY

    Mr. Ritter. Thank you, Madam Chairman. I appreciate the 
opportunity. Ranking Member Vitter, other members of the 
committee, I appreciate the opportunity to be here today and 
testify before the committee regarding the President's climate 
action plan, but particularly with the work that I do at 
Colorado State University that really involves what States are 
doing around the country regarding energy and particularly 
regarding clean energy.
    I left office in 2011 and founded the Center at Colorado 
State University, so for the past 3 years I have worked with 
States on energy policy. We have developed actually a Web site 
that tracks every piece of advance energy legislation at the 
State level. There were 3,600 separate pieces of energy 
legislation introduced in State houses across America last 
year; 600 of those were signed into law by Governors across the 
country.
    It is important in this discussion to understand that clean 
energy is on the minds of Governors across the country. There 
are 220 million Americans who live in a State that has a 
renewable energy standard or renewable energy goal. About 240 
million Americans that live in a State with an energy 
efficiency resource standard, and a number of Americans similar 
to that number that live in a State with a climate action plan.
    What is really important as well about that is those States 
include both States where there is Democratic leadership and 
Republican leadership. If you just look at sort of the recent 
past, what Republican Governors have done with respect to 
renewable energy standards or energy efficiency resource 
standards or just generally with the topic, you get a sense 
that this is a bipartisan sort of coalescing at the State 
level.
    Governor Snyder in Michigan just recently announced a plan 
to increase the renewable energy standard in Michigan as well 
as mix with natural gas and try and lessen the amount of coal 
that there will be in Michigan. They import 100 percent of 
their coal; it is about 60 some percent of their fleet. 
Governor Kasich in Ohio has been very good about looking at 
natural gas regulation as a part of his work there. But as 
well, he has looked to the manufacturing association for Ohio 
and another group called the Advanced Energy Economy of Ohio 
with regard to sort of their input on the renewable energy 
standard and the energy efficiency resource standard.
    There was a real concerted effort in the United States 
across the States last year to undo the renewable energy 
standards in different States and the energy efficiency 
resource standards, including in Ohio. Every one of those 
efforts actually wound up failing and every one of the States, 
including those that are under Republican leadership, were able 
to beat back those efforts. So Governor Sandoval, actually the 
Republican Governor in Nevada, expanded the renewable energy 
standard. Governor Brewer in Arizona often champions solar as 
an important part of that State's growing economy. Governor 
Brownback in Kansas was another, this is another State where 
they did not, they were not able to attack or defeat the 
renewable energy standard. And it was beaten back and really, 
with the support of Governor Brownback with the support of the 
wind industry there.
    Our experience in Colorado is interesting to think about. 
As Senator Udall said, we expanded our renewable energy 
standard to 30 percent over the, by 2020, we did it with a rate 
cap in place to protect consumers. But that has created jobs in 
a significant way, and as well, it is interesting to think 
about Xcel Energy, the major investor-owned utility in 
Colorado, because of the efforts to combine both the transition 
of coal to natural gas as well as a 30 percent renewable energy 
standard, Xcel will reduce their emissions. This is a major 
investor-owned utility, reduce their emissions from 2005 to 
2020 levels by 35 percent.
    It is important to understand that this is all done in 
conjunction with the Federal Government, and why the 
President's Federal climate action plan is so important. 
Because it is not just States acting alone, it is actually a 
great deal to do with a variety of things, including EPA 
rulemaking where SIPs were required. The Department of Energy, 
working in concert either with technical assistance or with 
research assistance for States, developing their State energy 
plans, and certainly as utilities, look at the future and 
understand that a different business model is probably going to 
be required over the next 10 or 20 or 30 years to have the 
Federal Government's assistance, both from the Department of 
Energy perspective as well as other agencies, and trying to 
help this very important industry understand how to shift its 
rate design, its revenue model.
    So those are all part of what the Federal Government can do 
in interacting with States. States are a vital part of this 
Nation's climate action plan. States have shown great success 
in actually being able to hold rates at a fairly steady rate. 
In Colorado, for instance, below the consumer price index 
increases, below inflation. Even with an aggressive renewable 
energy standard like 30 percent. And at the same time, show job 
creation as a result of it.
    So I come here, Madam Chairman, appreciative of the time 
that I have to speak about this and willing to answer any 
questions. Thank you.
    [The prepared statement of Mr. Ritter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Boxer. Thank you.
    I am going to hand the gavel over to my wing man here, 
Senator Whitehouse, due to other obligations, and he will 
complete the hearing. We are going to now hear from our next 
panelist, Dr. Andrew Dessler, Professor of Atmospheric 
Sciences, Texas A&M.

STATEMENT OF ANDREW E. DESSLER, Ph.D., PROFESSOR OF ATMOSPHERIC 
                 SCIENCES, TEXAS A&M UNIVERSITY

    Mr. Dessler. Thank you. My name is Andrew Dessler, I am a 
professor of Atmospheric Sciences at Texas A&M.
    In my testimony, I will review what I think are the most 
important conclusions the scientific community has reached in 
over two centuries of work on climate. First, the climate is 
warming. By this I mean that we are presently in the midst of 
an overall increase in the temperature of the lower atmosphere 
and oceans spanning many decades. Second, most of the recent 
warming is extremely likely due to the emissions of carbon 
dioxide and other greenhouse gases by human activities. This is 
based on several lines of evidence, including observation of 
increasing greenhouse gases in our atmosphere and understanding 
of the greenhouse effect and a demonstration of the enhanced 
greenhouse gas effect can explain the observed warming.
    For simplicity, in the remainder of my testimony I am going 
to refer to this mainstream theory of climate influence as the 
standard model. The standard model in fact can explain just 
about everything we observe in the climate system, both present 
day and during the geologic record. It has also made many 
successful predictions which are the gold standard of science. 
If you can successfully predict phenomena that are later 
observed, one can be supremely confident that a theory captures 
something essential about the real world. So as an example, 
climate scientists predicted in the 1960s that the stratosphere 
would cool while the troposphere would warm, as a result of 
increased greenhouse gases. And this was observed 20 years 
later. In the 1970s, climate models predicted the Arctic would 
warm faster than the Antarctic. This has also been subsequently 
confirmed.
    The water vapor feedback is another fundamental prediction 
of the standard model that has just recently been observed. 
This explains why the bulk of the scientific community is so 
confident in the standard model. It explains just about 
everything, and it makes many successful predictions.
    Now, you don't hear about this very often. Because 
scientists don't like to talk about things we know. I am 
uninterested in things we know; I like things we don't know. 
That is research. That is things where we can get stuff done.
    And it is also true that obviously, this doesn't mean our 
knowledge is perfect. And this is reflected in uncertainty 
estimates that are provided in the consensus reports.
    Now, a caveat. I said above the standard model explains 
virtually everything, which means there are a small number of 
observations that aren't necessarily well explained by the 
standard model, just as there are a few heavy smokers who don't 
get lung cancer. An excellent example of this is the so-called 
hiatus which has been mentioned several times. Slow warming of 
the surface temperature over the last decade or so. This is 
frequently presented as an existential threat to the standard 
model. But as I describe below, this greatly exaggerates its 
implications.
    Before I explain why, I think it is worth recognizing that 
skeptics have a track record of overstating the importance of 
these challenges to the standard model. A few years ago, for 
example, strong claims were made about the surface temperature 
record. It is argued that siting issues, for example, a 
thermometer too close to a building meant that the surface 
record was hopelessly biased. This was portrayed as an 
existential threat to the standard model.
    Subsequent research, however, has resolved this issue. It 
is now clear there was never a threat to the standard model at 
all.
    So why do I think that the hiatus, the slow warming of the 
last decade, is not much of a threat to the standard model? To 
begin, a lack of a decadal trend in surface temperatures does 
not mean that the warming has stopped. Observations show that 
heat continues to accumulate in the bulk of the ocean, 
indicating continued warming. Also in my written testimony, and 
in the plot that Senator Whitehouse showed, the surface 
temperature record shows frequent periods of short cooling, 
even while it is undergoing a long-term warming trend.
    In addition, one of the Senators said the climate models do 
not predict periods of no warming. That is not correct. Climate 
models do predict periods where there is no warming.
    Now, that does not mean that we understand the hiatus 
perfectly. And I view the hiatus as an opportunity not as an 
existential threat. I think short-term climate variability is 
an area where our understanding could improve and the hiatus 
will help us to do that. Papers are already coming out, on a 
monthly basis, it seems, I suspect that in the next few years, 
our understanding of this phenomena will be greatly improved. 
At that point, I predict that arguments about the hiatus will 
disappear just like arguments about the surface temperature 
record have.
    Now, given the success of the standard model, what does it 
tell us about the impacts of future climate change? Before I 
begin talking about this, I think it is worth discussing the 
value of talking about what we know rather than what we don't 
know. Focus on what is unknown can lead to an inflated sense of 
uncertainty. For example, we don't know the exact mechanism by 
which smoking cigarettes causes cancer, nor do we know how many 
cigarettes you have to smoke to get cancer, nor can we explain 
why some heavy smokers don't get cancer while some non-smokers 
do. Based on this, you might conclude that we don't know much 
about the impacts of smoking, but that is wrong.
    So let me just conclude by telling you a few of the certain 
impacts of climate change. We know the planet is going to warm. 
That is virtually certain. We know extreme heat events will 
become more frequent. We know the distribution of rainfall will 
change. We know the seas will rise. We know the oceans will 
become more acidic. We can argue about things we don't know, 
but those are things that are virtually certain.
    Thank you.
    [The prepared statement of Mr. Dessler follows:]
    
    
    
    
    
    Senator Whitehouse [presiding]. Thank you very much, Dr. 
Dessler.
    Dr. Lashof, please.

  STATEMENT OF DANIEL A. LASHOF, Ph.D., DIRECTOR, CLIMATE AND 
      CLEAN AIR PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Lashof. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to appear here today. I want to 
thank you, Senator Whitehouse, for your work with Senator Boxer 
and in the Senate Climate Task Force.
    Senator Whitehouse. One day I am bipartisan, 1 day.
    Mr. Lashof. So I appreciate that. Actually what I wanted to 
say is that it does sadden me, actually, that there are no 
Republicans on that task force. I have appeared before this 
committee several times over the years, before both Republican 
and Democratic chairmen. And it has never been as partisan as 
it is today. CO<INF>2</INF> molecules in the atmosphere trap 
heat. They don't have party affiliations. It is physics and 
chemistry, not partisanship, that should be informing the 
policy that we adopt.
    Let me turn to the President's climate plan, because I 
think it is really a critical step forward. It will put us on 
the right track to cut dangerous pollution that threatens our 
health and well-being. It will help communities across the 
country prepare for more frequent and intense inclement 
weather. And it will position the United States to provide the 
leadership that the world needs on this issue.
    The central pillar of this plan is a set of standards under 
existing law, authorized by previous Congresses in the Clean 
Air Act and other legislation that if implemented ambitiously, 
can achieve a total reduction in greenhouse gas emissions of 
127 percent below 2005 levels by 2020, which is the goal the 
President has set for the United States. It can do that through 
four major areas of action. First, power plants are the largest 
source of carbon pollution in the United States. They are 
responsible for 40 percent of our CO<INF>2</INF> emissions.
    And as Administrator McCarthy discussed, EPA's proposed 
carbon pollution standards for future power plants, that 
proposal is based on a careful review of industrial experience 
with large scale carbon capture technologies.
    Now, some have argued that the Energy Policy Act, and we 
heard this argument today, prevents EPA from setting standards 
based on CCS because there have been some Government-funded CCS 
projects. That is incorrect. The Energy Policy Act said that 
EPA cannot base its standard solely on projects that were 
funded by the Government. And EPA hasn't done that. It has 
based its proposal on a wide variety of data.
    Just think about the proposition here. If the 
interpretation that says because the Government has supported 
some projects that use CCS means EPA can't base standards on 
CCS, it would be an absurd situation where the Government is 
investing hundreds of millions of dollars in advanced 
technology and then we are not allowed to use that technology 
to improve the environment. That would not make any sense. So 
we should not do that.
    But equally important, neither Government nor private 
forecasts actually anticipate the construction of any new coal 
plants in the United States, whether or not carbon pollution 
standards are established. So in fact, the biggest opportunity 
to reduce U.S. carbon emissions over the next decade is to set 
standards for our existing fleet of some 1,500 coal-fired power 
plants around the country. EPA is scheduled to do that in June.
    NRDC's studies of a particular proposal that we offered 
about how to do that shows that we can actually get big carbon 
reductions at very low cost. The flexible system-wide approach 
that we have proposed could reduce emissions by 23 to 30 
percent below 2012 levels in 2020, while producing $30 billion 
to $55 billion in net economic benefits or more.
    So that is a very cost effective measure that we should 
move forward with.
    Second, the Administration needs to do more to reduce 
emissions of methane, particularly from the oil and gas 
industry. Third, another key initiative is phasing down the use 
of HFCs, both domestically and internationally. HFCs are 
hundreds of thousands of times more powerful on a pound for 
pound basis than carbon dioxide. The U.S. has joined with other 
countries, including Mexico and Canada, to propose a global 
phase-down. The President recently reached an agreement with 
the president of China, committing both countries to such a 
phase-down. So that is an example of how U.S. leadership can in 
fact achieve global action on a very important pollutant.
    Fourth and finally, we need further action to address the 
transportation sector, which is the second largest source after 
power plants. Building on the successful fuel efficiency 
standards which have been mentioned today, the priority for EPA 
now is to set stronger standards for freight trucks. And by 
doing so, the emissions of freight trucks could be reduced by 
roughly 45 percent by 2025 for new trucks, compared with if we 
continue to use 2010 technology.
    So in conclusion, carbon dioxide emissions have actually 
declined over the last 5 years as we use energy more 
efficiently and shift toward cleaner fuels, putting the 17 
percent reduction target within reach. And we can achieve that 
goal through cost-effective standards to reduce CO<INF>2</INF>, 
methane, HFCs from power plants and other large sources. Doing 
that will create new markets for technological ingenuity and 
will put the U.S. on track to the much deeper emissions 
reductions needed for forestall out of control climate 
disruption and protect our health and the future our children 
inherit. Thank you.
    [The prepared statement of Mr. Lashof follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Whitehouse. Thank you very much, Dr. Lashof.
    Our next witness is Dr. Curry.

   STATEMENT OF JUDITH A. CURRY, Ph.D., PROFESSOR AND CHAIR, 
SCHOOL OF EARTH AND ATMOSPHERIC SCIENCES, GEORGIA INSTITUTE OF 
                           TECHNOLOGY

    Ms. Curry. I would like to thank the committee for the 
opportunity to present testimony this morning. I am chair of 
the School of Earth and Atmospheric Sciences at the Georgia 
Institute of Technology. I have devoted 30 years to conducting 
research on topics including climate of the Arctic, the role of 
clouds and aerosols in the climate system and the climate 
dynamics of extreme weather events.
    The premise of the President's climate action plan is that 
there is an overwhelming judgment of science that anthropogenic 
global warming is already producing devastating impacts. 
Anthropogenic greenhouse warming is a theory whose basic 
mechanism is well understood, but whose magnitude is highly 
uncertain. Multiple lines of evidence presented in the IPCC 
Fifth Assessment Report suggests that the case for 
anthropogenic warming is now weaker than in 2007, when the 
Fourth Assessment Report was published.
    My written testimony documented the following evidence. For 
the past 16 years, there has been no significant increase in 
global average surface temperature. There is a growing 
discrepancy between observations and climate model projections. 
Observations since 2011 have fallen below the 90 percent 
envelope of climate model projections.
    The IPCC does not have a convincing or competent 
explanation for this hiatus in warming. There is growing 
evidence of decreased climate sensitivity to atmospheric carbon 
dioxide concentrations. And based on expert judgment in light 
of this evidence, the IPCC Fifth Assessment Report lowered its 
surface temperature projection relative to the model 
projections for the period 2016 to 2036.
    The growing evidence that climate models are too sensitive 
to CO<INF>2</INF> has implications for the attribution of late 
20th century warming and projections of 21st century climate 
change. Sensitivity of the climate to carbon dioxide and the 
level of uncertainty in its value is a key input into the 
economic models that drive cost benefit analyses, including 
estimates of the social costs of carbon.
    If the recent hiatus in warming is caused by natural 
variability, then this raises a question as to what extent the 
warming between 1975 and 2000 can also be explained by natural 
climate variability. In a recent journal publication, I 
provided a rationale for projecting the hiatus in warming could 
extend to the 2030s. By contrast, according to climate model 
projections, the probability of the hiatus extending beyond 20 
years is vanishingly small. If the hiatus does extend beyond 20 
years then a very substantial reconsideration will be needed of 
the 20th century attribution and the 21st century projections 
of climate change.
    Attempts to modify the climate through reducing 
CO<INF>2</INF> emissions may turn out to be futile. The 
stagnation in greenhouse warming observed over the past 16 
years demonstrates that CO<INF>2</INF> is not a control knob 
that can fine tune climate variability on decadal and multi-
decadal time scales. Even if CO<INF>2</INF> mitigation 
strategies are successfully implemented and climate model 
projections are correct, an impact on the climate would not be 
expected for a number of decades.
    Further, solar variability, volcanic eruptions and natural 
internal climate variability will continue to be sources of 
unpredictable climate surprises.
    As a result of the hiatus in warming, there is growing 
appreciation for the importance of natural climate variability 
on multi-decadal time scales. Further, the IPCC AR5 and Special 
Report on Extreme Events published in 2012 find little evidence 
that supports an increase in most extreme weather events that 
can be attributed to humans.
    The perception that humans are causing an increase in 
extreme weather events is the primary motivation for the 
President's climate change plan. However, in the U.S. most 
types of weather extremes were worse in the 1930s and even in 
the 1950s than in the current climate, while the weather was 
overall more benign in the 1970s. The extremes of the 1930s and 
1950s are not attributable to greenhouse warming. Rather, they 
are associated with natural climate variability. And in the 
case of the Dust Bowl drought and heat waves, also to land use 
practices. The sense that extreme weather events are now more 
frequent and intense is symptomatic of pre-1970 weather 
amnesia.
    The frequency and intensity of extreme weather events is 
heavily influenced by natural climate variability. Whether or 
not anthropogenic climate change is exacerbating extreme 
weather events, vulnerability to extreme weather events will 
continue to increase owing to increasing population and 
concentration of wealth in vulnerable regions. Regions that 
find solutions to current problems of climate variability and 
extreme weather events are likely to be well prepared to cope 
with any additional stresses from climate change.
    Nevertheless, the premise of dangerous anthropogenic 
climate change is a foundation for a far-reaching plan to 
reduce greenhouse gas emissions and reduce vulnerability to 
extreme weather events. Elements of this plan may be argued as 
important for associated energy policy reasons, economics and/
or public health and safety. However, claiming an overwhelming 
scientific justification for the plan based upon anthropogenic 
global warming does a disservice both to climate science and to 
the policy process.
    Good judgment requires recognizing that climate change is 
characterized by conditions of deep uncertainty. Robust policy 
options that can be justified by associated policy reasons----
    Senator Whitehouse. Ms. Curry, in fairness to all the other 
witnesses, we have tried to keep everybody within a fixed 
timeframe. You are already a minute over. To the extent you 
could wrap up, it will be helpful to the committee.
    Ms. Curry. My apologies. Robust policy options that can be 
justified by associated policy reasons, whether or not 
anthropogenic climate change is dangerous avoids the hubris of 
pretending to know what will happen with the 21st century 
climate.
    [The prepared statement of Ms. Curry follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Whitehouse. Thank you.
    And our next witness is Ms. Kathleen Hartnett White.

  STATEMENT OF KATHLEEN HARTNETT WHITE, DISTINGUISHED SENIOR 
 FELLOW-IN-RESIDENCE AND DIRECTOR, ARMSTRONG CENTER FOR ENERGY 
      AND THE ENVIRONMENT, TEXAS PUBLIC POLICY FOUNDATION

    Ms. White. Thank you, Senator Whitehouse, and thank you, 
Ranking Member Vitter, for the opportunity to testify before 
this committee.
    I am particularly grateful to share my perspective as a 
former State environmental regulator of the Texas Commission on 
Environmental Quality, which according to EPA is the second 
largest environmental agency in the world. And before I address 
specific components of the President's climate action plan, I 
would like to note several very positive trends, and this is 
one of two graphs in my written testimony. According to the 
EIA, energy-related emissions of carbon dioxide decreased 3.7 
percent in 2012, the lowest emission level since 1994. And as 
the graph depicts, as a measure of the amount of CO<INF>2</INF> 
generated per dollar of economic output, carbon intensity, a 
metric that EIA uses, the U.S. economy has been steadily less 
carbon intense since 1949. And in 1 year, 2012, that carbon 
intensity declined 6.5 percent.
    And while part of that is a weaker economy than in previous 
decades and increased use of natural gas, I think it is really 
a remarkable trend, and I would credit it to the inherent 
efficiency in private markets that is always driving the 
business.
    The President's climate action plan, I counted a mixture of 
at least 50 Federal programs or initiatives that most exist 
already. So many of them are reinforcing what already exists. 
Several components of which I think are quite alarming, 
particularly without congressional approval of such bold, bold 
projects. My overall assessment would be that in general a plan 
of that scope and inevitable cost that really deals with a 
policy of major national consequence must be, must be something 
that our voice in the U.S. Congress approves and is not merely 
a result of executive action.
    I will turn the rest of my comments to the carbon pollution 
standards, the so-called new source performance standards that 
EPA, one of which is already proposed for the second time, and 
for new coal-fired power plants, the second of which is well 
underway as a plan, and from the standpoint, again, of spending 
6 years implementing Federal law in air quality permits in 
Texas. It is from that basis and quite a bit of familiarity 
with how new source performance standards operate.
    These new source performance standards are unquestionably 
the most aggressive action taken under the endangerment finding 
that CO<INF>2</INF> endangers human health and welfare. And 
they are the first direct regulation of carbon dioxide. I could 
give examples of previous indirect means but not time.
    EPA uses, as has been mentioned by several today, carbon 
capture and control technology as the basis for which to craft 
the numeric limit. In my judgment, that standard is 
unquestionably infeasible for coal-fired power plants to 
attain, because carbon capture and control technology is not at 
all commercially demonstrated. This is really an unprecedented 
expansion of EPA's authority, because the net effect is to 
force fuel switching from coal to natural gas or from any 
fossil fuel generation to non-emitting generation such as 
renewables. I find nothing in the Clean Air Act that can 
authorize EPA to engage in what becomes really centralized 
energy planning.
    To me, the Clean Air Act, which is a wonderful law, 
enshrines economic freedom, which is at the basis of this 
democracy. It allows private actors, not the EPA, to choose 
energy source, process and product. EPA, as has been repeatedly 
mentioned today, EPA's authority is limited to requiring best 
pollution control technology that has been commercially 
demonstrated for the industrial process in question. There is 
not one single successfully operating power plant in the United 
States for any length of time that has used CCS. There have 
been a number of pilot projects, they either failed or are 
incomplete. The EPA lays weight on the Southern Company's 
project in Kemper County, Mississippi, which is under 
construction and just was forced to acknowledge that its cost 
overruns went from something like $2.3 billion to over $4 
billion.
    Coal remains the largest source and the central mainstay of 
baseload electricity in this country. The infrastructure 
surrounding it has evolved over a century. And the coal 
industry has spent, in the last probably 10 years, an estimated 
$100 billion to install all kinds of elaborate pollution 
control technology to reduce by many, many times emissions of 
traditional pollutants.
    And the pain, I think, is already occurring in this country 
and others. I see my time is about to run out, but I hope the 
U.S. Congress and EPA will look very, very carefully at what is 
going on in the European Union and countries that have made a 
rush to renewables. Der Spiegel reports in Germany, mainstream 
media, over 600,000 to 700,000 families in Germany are now cut 
off from electricity. Another headline in the U.K. was 
something to the effect, as referenced in my testimony, 24,000 
elderly individuals in the U.K. may die this winter because 
they no longer have access to heat.
    Thank you.
    [The prepared statement of Ms. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Whitehouse. Thank you very much, Ms. White.
    I have the gavel, and so by definition I am going to be the 
last Senator in the room. So I will let my colleagues precede 
me in order to allow them to move on to their schedules.
    I will begin with the ranking member, Senator Vitter, and 
then we will follow him with Senator Boozman and myself. So it 
looks like it is down to the three of us. Senator Vitter.
    Senator Vitter. Thank you very much.
    I want to get back to this push for us to talk in a fairly 
precise, disciplined way about the science and not be 
cartoonish about it. And certainly, folks in the Congress are a 
lot more guilty of that than anyone at the table. So I don't 
mean to level that criticism at you all.
    Dr. Curry, you say ``Claiming an overwhelming scientific 
justification for the plan,'' meaning this particular climate 
action plan, ``does a disservice both to climate science and to 
the policy process.'' Why don't you expand on that a little bit 
more and explain what you mean?
    Ms. Curry. There is a great deal of research that needs to 
be done to better understand climate variability and change. 
Everything from the sun, climate connections, natural internal 
variation, the role of oceans and so on, there are a lot of 
things that we don't have adequate understanding to. And to 
think that all we need to do is leap to the impact assessment 
part of the problem I think does a disservice to the science, 
and we could end up with misleading conclusions if we don't 
really keep trying to understand these aspects of the climate 
system better.
    Senator Vitter. One of my biggest pet peeves in this regard 
is the growth in the last 10 years of the mantra, the rallying 
cry of extreme weather. Because there are a few trends and 
there aren't a lot of trends. Certainly for obvious reasons, I 
am from Louisiana, I care a whole lot about hurricanes, and I 
have lived through way too many. But we had a hearing before 
this committee that dealt with, among other things, extreme 
weather. And it was the consensus of every witness, I don't 
think there was any disagreement, that in terms of historical 
record and observation, there is no observation, there is no 
historical record of increasing hurricane or tornado activity, 
both in terms of frequency and in terms of strength. I point to 
those two things, because those are the things that are most 
often talked about in terms of this extreme weather narrative.
    Do any of you disagree with that in terms of the historical 
record, the metrics about hurricanes and tornadoes?
    Ms. Curry. I have testified twice previously on House 
committees related to hurricanes and climate change. There are 
in some regions observations of increasing intensity of 
hurricanes, in the Atlantic and the Indian Ocean since 1980. 
But there is absolutely no way to separate that out from 
anthropogenic causes versus natural climatic variability.
    For example, the hurricanes in the Atlantic are probably as 
intense in recent decades as they were in the 1950s. So there 
is just no way to separate it out from natural versus 
anthropogenic, although in a few ocean basins there is evidence 
of increased intensity in hurricanes.
    Senator Vitter. Does anybody else want to comment about 
that specific subject?
    Mr. Dessler. Yes, I mean, we do have evidence of 
precipitation, more intense events. Now, again, I don't know 
what the attribution science is on that. But we do see more 
rain falling and more intense events. We are seeing more 
extreme heat waves. In some cases, those have been attributed, 
at least partially, to anthropogenic effects. So in certain 
things we can do some attribution. But you are right, there is 
a lot of uncertainty in some of these.
    But again, as I said in my testimony, I would encourage 
everyone to think about the things that we are certain about, 
instead of arguing about, well, we are uncertain. We are 
certain the temperature is going up. We are certain, or 
virtually certain, we can argue epistemological certainty and 
science. We are virtually certain that it is getting warmer, 
extreme heat events, the oceans are going to rise, the oceans 
are getting more acidic. These are certain, or virtually 
certain.
    Senator Vitter. I accept your testimony. I was specifically 
asking though because this is what is bandied about, at least 
around here and in the media all the time, hurricanes and 
tornadoes. Do you disagree with the discussion we have had 
about hurricanes and tornadoes and that historical record?
    Mr. Dessler. No, I agree with what Dr. Curry said, and I 
agree there are a lot of foolish things that are said by a lot 
of people in the climate change debate on both sides of the 
debate. I think you are exactly right, we should really stick 
to the science and really see what the scientists say.
    Senator Vitter. And Dr. Curry, going back to you, you made 
the statement with regard to this in general, ``The sense that 
extreme weather events are now more frequent and intense is 
symptomatic of weather amnesia prior to 1970.'' Can you explain 
what you mean exactly?
    Ms. Curry. It is just that people remember back a decade or 
two. But if you look at the actual records, the data records, 
there was much more severe weather in the 1930s and the 1950s 
in the U.S. That is a matter, you can look at EPA, plots, I 
think I cited one in my testimony about heat waves, the heat 
wave index was much worse in the 1930s than anything we have 
seen in recent decades.
    So almost all extreme events were probably, in the U.S., 
were worse in the 1930s and the 1950s. The one exception, which 
Dr. Dessler mentioned, was the 1-day extreme precipitation 
amounts. We see higher values of that since the 1990s.
    Senator Vitter. Thank you all very much.
    Senator Whitehouse. Thank you, Senator Vitter. Senator 
Boozman.
    Senator Boozman. Thank you very much.
    Dr. Dessler, I agree with you, the science is settled in 
regard to smoking. Would you agree that there was a time, 
though, that the science was such that most scientists felt 
like smoking was OK?
    Mr. Dessler. I am sorry, was there a time when they said 
smoking was OK?
    Senator Boozman. Yes, when the medical authorities felt 
like smoking wasn't a big deal and it was OK?
    Mr. Dessler. Yes, I think probably in the early 20th 
century.
    Senator Boozman. The point I am making is, the idea, and I 
think you agreed to it a few moments ago, in the sense that the 
idea when people question things and then all of a sudden their 
motives and that they are crazy in questioning the scientific 
aspect of the day, because most of the time whoever made it 
such, made the discovery did the research and started 
questioning, many times those people were held in poor 
standing.
    So I don't think that is healthy, and I think you would 
agree with that, is that correct?
    Mr. Dessler. Yes, I think that free inquiry is one of the 
hallmarks of science.
    Senator Boozman. I think the question is, in the smoking 
example, you solve that problem by not smoking anymore. In this 
problem, we can't solve that problem by not having manmade 
CO<INF>2</INF>. We are going to create manmade CO<INF>2</INF>. 
So I think the question is, is the climate model science-
settled, is the science settled as to how much people are 
producing, and is the science as to how much we can throttle 
back where we actually would have an impact, a measurable 
impact to reverse the process.
    So do you feel like those areas are settled?
    Mr. Dessler. So, your question about how much 
CO<INF>2</INF> we produce, that is settled. We have a really 
good accounting of how much carbon dioxide comes from fossil 
fuel combustion, cement and deforestation. There is some 
uncertainty, we understand that.
    Senator Boozman. So when you add in all of the rest of the 
atmosphere, the solar aspect, the volcanoes, all of that, that 
is pretty well settled?
    Mr. Dessler. We have good measurements of the output of the 
sun for the last few decades. You have to measure it from 
satellite, and volcanoes, you can see it from space. So we have 
pretty good measurements of the radiative force that comes from 
those. So there are not big uncertainties in that.
    There are some uncertainties in aerosols. But as carbon 
dioxide accumulates in the atmosphere, very soon it is going to 
be really the only game in town.
    Now, as far as your question about can do we something 
about it, it is interesting because I think Dr. Curry and I 
agree completely, we just said it in a different way. I agree 
with her that we have no control, no fine control over the 
climate. I agree that no matter what we do, we probably won't 
see impacts for a decade or two or three. The climate of the 
next few decades is essentially already determined by other 
factors.
    But the one thing we do have control over is, we have 
control over the climate in the second half of the century and 
in the century after that and for the next thousand years. So 
if we dial down, we will avoid the very large warmings that are 
predicted.
    Senator Boozman. So the science is settled as to how much 
you dial down that will produce this or that happening?
    Mr. Dessler. I would say that there is wide agreement on a 
range of climate sensitivities.
    Senator Boozman. But it is not settled, is it?
    Mr. Dessler. Well, it is settled, I would say it is settled 
on a range. And you know what I would encourage you to do is, 
don't take my word for it. I would invite you to go to a 
meeting of climate scientists. The AMS meeting is in 2 weeks in 
Atlanta. Dr. Curry will be there, I will be there. I talked to 
Marshall Shepherd, President of the AMS. He says you guys are 
more than welcome. Show up, talk to people. And you can find 
that most people would say there is a range of sensitivities.
    Senator Boozman. Let me ask, and then we will go back if he 
will allow, do you agree with that? Is the science settled?
    Ms. Curry. The significant thing, and this is in my written 
testimony, is that the range of sensitivity was, the likely 
range was 2 to 4.5 degrees Centigrade in the Fourth Assessment 
Report. The range has dropped to 1.5 to 4.5. So it was lowered 
as a result of a growing collection of empirically based, 
observationally based studies that indicate lower values of 
climate sensitivity at 2 degrees Centigrade or lower.
    So, and for the first time, the Fifth Assessment Report 
declined to give a central number, whereas the Fourth 
Assessment Report said 3 degrees was sort of the central value. 
The Fifth Assessment Report gave no central value because this 
dichotomy of the low values from observations and the higher 
values from climate models. So I would say that sensitivity to 
doubling of carbon dioxide is now less certain than we thought 
it was at the time of the Fourth Assessment Report.
    Mr. Dessler. Could I add one thing to that? That is, of the 
First, Second and Third IPCC Reports did not give a central 
estimate and their estimate of climate sensitivity was one and 
a half to four and a half. Only the Fourth moved it up to 2 
degrees and gave a central estimate.
    And I agree, there is a range of evidence, you can argue 
about the range. But I would say that there is broad consensus, 
if you go to a scientific meeting, you talk to scientists, you 
will hear some say, yes, this is the range. There may be a few 
people who are outliers. But that is what it is. And given that 
sensitivity, you can then sort of project, OK, if we cut this 
much, this is the temperature.
    Senator Boozman. The thing that I would like to know, we 
had comments about what is going on in Europe and things like 
that. They are really backing up. India and China have both 
said that they are not going to participate, they want their 
200 years of industrial revolution. So as I said earlier, all 
pain with no gain. At some point we need to be honest with the 
American public as to what we are doing, what the cost is going 
to be, and what the result is as far as actually making a 
difference if the modeling is correct and all that, all those 
things which we are currently using. I think there is some 
question as to that.
    That is the only point I would make.
    Mr. Lashof. The point I was going to make is that the 
policy question is, do we know enough about the risks to take 
certain steps to reduce emissions of carbon dioxide. I think 
the answer to that is clearly yes. That doesn't mean we should 
do crazy things, but it means we should take sensible steps 
forward and China also believes that. China is actually looking 
at capping their own emissions in the near future, and they 
recognize that the pollution, both of conventional pollutants 
and of carbon dioxide, is a huge threat to their economy and 
well-being in the future. So it is really, in China now, just a 
question of timing. But if you look at the U.S.----
    Senator Boozman. So the Chinese, they are not building 
coal-fired plants?
    Mr. Lashof. They are building coal plants, but they are 
also building wind, they are also building solar. The issue is, 
you look at the individual policies in the President's climate 
plan, do they make sense, I think the answer is clearly yes.
    Senator Whitehouse. For what it is worth, I just came back 
from China. I went there with Senator McCain. We met with the 
second highest ranking individual in the most important 
ministry in the Chinese government. And that is their climate 
minister. And in everything that we heard from him and 
everything that we heard from our embassy briefer as well, the 
Chinese are absolutely deadly serious about getting something 
done. They have to keep building coal plants for a while 
because their economy is growing so fast that they need the 
power, and they know that they can bring that online.
    They also know that that is their biggest risk of social 
upheaval and disruption. Because people are so fed up with the 
environmental consequences that they are experiencing across 
that country, it is the No. 1 thing, our embassy told us, that 
frightens the Chinese government about a green revolution type 
of thing that could upend their rule.
    As a result, they are investing very heavily for two 
reasons in new technologies. For instance, new nuclear 
technologies that are stalled here in the United States, 
developed here in the United States, they have decided to 
invest in them and they are planning to allow them to go 
forward, would allow them to actually burn spent nuclear fuel 
to create power.
    They also want, in the nuclear industry, in the wind, 
solar, battery storage, all the array of new industries that 
are going to emerge to make for the clean energy economy, 
competitive advantage against us. So they have a mercantile 
reason for doing it and a self-preservation reason for doing 
it. But I cannot tell you how strong the sentiment was, both 
from the embassy and from the Chinese officials we visited, 
including their very highly placed climate minister, that they 
are deadly serious about fixing this, and that it is vitally 
important to them for a whole number of reasons.
    Let me also just follow up with Governor Ritter. You opened 
your testimony with the phrase, you said bipartisan coalescing 
at the State level. Could you describe a little bit more of 
what you see as bipartisan coalescing at the State level and 
why you think bipartisan coalescing is happening at the State 
level while here in Congress this has become part of the 
culture wars and the deniers are forcing inaction?
    Mr. Ritter. Thank you, Mr. Chairman. I won't hypothesize 
about what is happening here, but what I can tell you at the 
State level, you take a State like Ohio where there have been 
efforts to undo the renewable energy standard, or the energy 
efficiency resource standard that seems to fail because the 
business community is able to approach Republicans and 
Democrats alike, in the State house as well as approach 
Governors, and make the business case for a clean energy 
economy.
    If you look at the supply chain for clean energy 
manufacturing in Ohio, it is a great example of a place where 
there has been an economic vitality to that State in part 
because of clean energy. The same is really true, I think the 
Governor of Michigan understands, first of all, they are 
importing all of their coal. They have abundant wind and 
natural gas and the ability to, and actually solar, the ability 
to really mix that over time, increase their renewable energy 
standard, increase their reliance upon natural gas, lower their 
emissions and help their economy.
    There have been other States that have already been able to 
do that, and so some of these States are looking at the 
examples of other States. But at the State level where 
Governors actually have to compete every day with other States 
for economic vitality they don't just talk about it, you 
actually have to do it. In those States I think that have 
looked around, they understand, it doesn't matter if I am a 
Democrat or Republican, if I am not creating jobs in this 
State, and if I am not doing it in a way that also responds to 
environmental concerns or even climate concerns, then I may be 
out of a job.
    Governor Brewer in Arizona is a big champion of solar. And 
she isn't a big champion of solar because she is Republican or 
Democrat, she happens to be a Republican, but because that 
economy is really going to rely heavily going forward on the 
solar industries, the variety of solar industries. In Colorado, 
where we made this big push around this aggressive renewable 
energy standard, even during the downturn, the one place in the 
private sector where our economy grew was in the clean energy, 
clean tech sector. So while it is still, while renewable energy 
is still a small part of the portfolio, certainly the natural 
gas or certainly the coal, I think we have seen the clean 
energy economies in States make an impact on those various 
State job creation abilities, the various economies.
    Senator Whitehouse. And very often that occurs with the 
strong support of major American corporations. Since Senator 
Boozman is here, I will read from the Wal-Mart 2009 
Sustainability Report. Here is what Wal-Mart published. Climate 
change may not cause hurricanes but warmer ocean water can make 
them more powerful. Climate change may not cause rainfall but 
it can increase the frequency and severity of heavy flooding. 
Climate change may not cause droughts, but it can make droughts 
longer. Every company has a responsibility to reduce 
greenhouses gases as quickly as it can.
    They continued by saying, that is why we are working in a 
number of areas to reduce our company's carbon footprint and 
also working with our suppliers and customers to help them do 
the same. Currently, we are investing in renewable energy, 
increasing energy efficiency in our buildings and trucks, 
working with suppliers to take carbon out of products and 
supporting legislation in the U.S. to reduce greenhouse gas 
emissions. Wal-Mart may be our biggest company. If we have a 
bigger, it is Exxon, which is really no longer an American 
company, it is an international creature.
    Mr. Ritter. We have done a variety of things as well, 
Senator, with utilities. Utility CEOs and CFOs around the 
country understand as well their own sort of vulnerability, 
their own risks. They do their own corporate threat analysis. 
They have their own shareholders.
    Senator Whitehouse. A number of big American corporations 
have actually imposed an internal price on carbon.
    Mr. Ritter. They have done an internal price on carbon. 
They also, like Wal-Mart, are going up the supply chain to look 
at consumer goods that come their way are produced and ask the 
question as it relates to greenhouse gas emissions.
    I actually spent some time in Bentonville with the 
sustainability team at Wal-Mart for a National Academy of 
Sciences panel that I am participating in, and had what I would 
consider a brilliant day in listening to Wal-Mart's leadership 
discuss about their sustainability efforts around the country, 
and then thinking about how to do that as well with the supply 
chain. But it is a great example.
    Senator Whitehouse. Great. Thank you very much.
    Ms. Curry, you are described very often when I look up your 
name as a contrarian climate scientist. What does that mean?
    Ms. Curry. I have no idea. There is a lot of words that get 
bandied about in the political debate.
    Senator Whitehouse. This is not just in the political 
debate. This is like Google, news stories, all sorts of things.
    Ms. Curry. Skepticism is one of the norms of science. The 
way that we test theories and ideas is to challenge them. And a 
good theory will be able to defend itself against challenges.
    When people try to defend their theory by calling people 
who challenge their theory by names, deniers, whatever, that is 
not a good sign that it is a strong theory.
    Senator Whitehouse. Do you think the scientific theory is 
influenced by what a scientist is called?
    Ms. Curry. No. I am just saying this is part of the public 
debate, not the scientific debate.
    Senator Whitehouse. OK. I thought you were saying that you 
called into question the scientific theory what you were 
called.
    Ms. Curry. I don't know that Andrew would call me a 
contrarian.
    Senator Whitehouse. And that doesn't seem to be right.
    Ms. Curry. I don't think climate scientists would call me a 
contrarian.
    Senator Whitehouse. Is it true that in 2007 you wrote in 
the Washington Post about climate change that if the risk is 
great, then it may be worth acting against, even if the 
probability is small, and that you have yet to see any option 
that is worse than ignoring the risk of global warming and 
doing nothing? Was that your Washington Post editorial from 
2007?
    Ms. Curry. Yes, I wrote those words in 2007. A couple of 
things. My thinking has evolved somewhat since 2007, as I have 
seen increasing evidence. I still think that there is a real 
risk there and that we need to figure out how to deal with it.
    Senator Whitehouse. You do think that there is a real risk 
there and that we need to figure out how to deal with it?
    Ms. Curry. Yes. We may decide to do nothing and just to do 
local adaptation and to see what happens.
    Senator Whitehouse. That would probably be the worst 
option, though. Correct?
    Ms. Curry. I am not judging specific policy options.
    Senator Whitehouse. OK. Well, as of 2007, you would have 
thought that was the worst option.
    Ms. Curry. Yes, as of 2007. I had more confidence in the 
consensus, the IPCC consensus, I had more confidence in that 
process.
    Senator Whitehouse. Let me turn to Ms. White for a moment.
    You opened your testimony by saying that you brought good 
news. And the good news was that carbon emissions and carbon 
intensity were both declining.
    Ms. White. Yes.
    Senator Whitehouse. Why is that good news?
    Ms. White. It could be on a variety of levels, depending on 
the point of view. It is a measure of efficiency, energy 
efficiency in our economy. It is also a lot of the emission 
control technologies or methodologies for the traditional 
pollutants, the criteria pollutants listed in the Clean Air Act 
as well as toxins. The great efforts over the last 20 years 
that are in place now, those also just coincidentally reduce 
CO<INF>2</INF>. So I think you see in those, you see the 
general reduction of any kind of----
    Senator Whitehouse. Any other reason that reducing carbon 
emissions is good news?
    Ms. White. I think the reasons I just stated were very 
good. It is a measure of reducing all those others. I defer not 
to something that someone calls consensus science. I have tried 
to follow the science, been involved with my work in 
environmental regulation for 30 years. But I do not reach a 
conclusion.
    Senator Whitehouse. So are the only two reasons that you 
think it is good news, that carbon emissions and carbon 
intensity are going because it shows that some emissions 
controls, technologies are working and the energy economy is 
becoming more efficient?
    Ms. White. I think that is profound, that the continual 
efficiency of our economy, even as population grows and the 
economy grows. I think that is something----
    Senator Whitehouse. In terms of the carbon emissions having 
any effect on, say, the atmosphere or our oceans? Do you think 
it is good news with respect to the atmosphere and oceans as 
well?
    Ms. White. Well, like I said, I don't reach conclusions on 
that. But because there are----
    Senator Whitehouse. Why would you not reach conclusions on 
that but reach conclusions on energy efficiency?
    Ms. White. Because I am not as persuaded by the science as 
I understand it as layman than some others.
    Senator Whitehouse. OK, so you are just a layman with 
respect to carbon's effect on the atmosphere?
    Ms. White. Yes, with respect to science. I am----
    Senator Whitehouse. OK, well, I will end that there.
    Ms. White. But if I could say one more thing, and this is 
that----
    Senator Whitehouse. And then I will turn back to Senator 
Boozman, who would like another moment.
    Ms. White. In response to Dr. Curry's testimony, I am 
struck that there is a very significant need for more research 
on natural variability and the climate sensitivity to manmade 
CO<INF>2</INF> in the context of natural, as you mentioned, in 
terms of aerosols and the sun and all of that. I think----
    Senator Whitehouse. Senator Boozman.
    Senator Boozman. The only thing I would say is that I think 
every company, every individual, all of us need to do a much 
better job of doing what we can, and we can, conservation I 
think is the key to this whole thing. We don't talk near enough 
about it. Back when most of you all were growing up, like me, 
you simply did not leave a room without turning out the lights 
or your parents yelled at you and said, turn the lights out. We 
don't do that anymore.
    The other thing is, the question is, with a potential 
problem, I think the question is, are we better off with coming 
up with a complex scheme like the cap and trade program that 
was passed in the House, which was overwhelmingly rejected by 
the American public, and I think you could argue that it was 
one of the major drivers for the Democrats losing the House 
that year, are we in the position to micromanage this thing up 
here with very complex schemes as we have done with other 
things. I think that the States are doing a good job. You have 
alluded to that. Senator Whitehouse alluded to the fact that 
industry was getting aggressive.
    And I do think that, I think Ms. Curry is very 
representative of the group of scientists who, in good faith, 
simply don't feel like the science is settled. I think there is 
evidence in that regard. Certainly the modeling, the fact that 
we can just say, this modeling is perfect and this and that, 
and we can predict all these things, I think that it is OK, we 
need people to question these things. It is very, very 
important.
    The other thing is, if we are in a situation, and I think 
it is really up for grabs whether or not the Chinese or the 
Indians, the discussions I have had with them, they might be 
doing a better job. But the discussions I have had with them 
again, their attitude is, we will be responsible in 200 years 
after we have our industrial revolution. We have problems we 
have to deal with. And they might ratchet it down where they 
can actually see their hand in front of their face again, as 
opposed to now.
    But what I want to know, from all of you at some point in 
time, and I don't think it is fair that the American people 
don't understand this, what is going to be the cost? What we 
have to do as a country, if nobody else really participates at 
great length, if we do all these things, what is going to be 
the end result? What is that going to do to our environment, 
what is it going to do to whatever.
    There are certainly a lot of things that we can do and need 
to be doing, common sense things. We all want to protect the 
environment, and we can do a much better job of that. But when 
you really make it such that you are talking about 
significantly increasing electricity prices, what I want to 
know at some point is what is that going to do to jobs, what is 
it going to do to people who are retired on fixed incomes, what 
is it going to do to single moms, all of those kind of folks, 
when you are talking about significantly increasing their 
energy prices and their gasoline, electricity and things like 
that.
    And if somebody would comment that you can do that without 
significantly increasing energy prices, I would like to hear 
that.
    Mr. Lashof. We did analyze a proposal for achieving 
significant further progress, building on the progress which I 
think is quite significant over the last 5 years. To continue 
to reduce the CO<INF>2</INF> emissions, particularly from the 
power sector, which is our biggest source. And we find that we 
can make another 23 to 30 percent reduction without a 
significant impact on electricity prices.
    Why? Well, partly because of energy efficiency, we are 
learning to use electricity much more efficiently and we have a 
lot more potential there. It doesn't just happen by accident. 
The States have adopted policies that are driving an $8 billion 
industry in that.
    The other reason is the cost of renewables has come down 
remarkably in the last 5 years. Wind is now much cheaper than 
building a new coal plant, and is competitive with just 
operating some plants in some circumstances. Solar has come 
down by 80 percent in the last 5 years. People haven't really 
fully understood the revolution that has happened in the 
renewable energy industry over that period of time. We actually 
have a huge opportunity to get big reductions without driving 
up electricity prices in a significant way.
    Senator Whitehouse. Let me thank the witnesses very much. 
Let me thank Senator Boozman for staying.
    I would respond on that that there clearly are costs if you 
apply what I proposed, which is a carbon fee. But if you make 
it revenue neutral, then every single dollar of it goes back to 
the American public. And so net, net, there is no cost. What 
you get is savings in terms of not having to fortify our 
coasts, for instance, against rising sea levels, not having to 
figure out how you deal with fishermen whose catches have moved 
either offshore or out in the deeper waters or into other 
States that they can't reach any longer.
    What do you do with foresters whose forests are burned 
because the pine beetle climbed up higher because there was no 
cold snap to wipe them out, and so there are the red forests 
that Senator Merkley described.
    Then there is the competitiveness question which is that if 
we invest only in the fossil fuels, which are on the wrong end 
of the cost curve that Dr. Lashof described, solar and these 
technology based sources are going to continue to reduce, and 
fossil and extractive based are going to continue to be 
expensive. If we are on the losing end of international 
competition for those newer, I don't want to buy that stuff 
from China. I don't want to be buying it from the EU. I want 
our American industries to be the leaders in that. And if our 
fossil fuel industry is trying to sabotage our clean energy 
industry for immediate market share advantage, it is doing a 
long term disservice to the economy and to the well-being of 
our country.
    So I think that the cost questions are real ones, but I 
think they are answered in the context of how we do something 
intelligent about solving what is a very, very real problem. 
And I thank the witnesses for sharing their various views. We 
will keep the record of the hearing open for 2 weeks for anyone 
who wishes to add anything further to the record and for those 
who have been asked to provide something to provide it for the 
record.
    I look forward to working with my colleagues and I hope 
sooner rather than later, even with Republican colleagues, to 
address climate change and carbon pollution. Because you can 
get into discussions about what climate modeling tells you, but 
you can't debate the acidification of the seas. You can't 
debate the 10 inches of sea level rise that my tide gauge in 
Newport, Rhode Island, has already seen. You can't debate that 
Narragansett Bay is already 3 or 4 degrees warmer in the 
winter.
    So you want to set aside the argument where there is 
modeling fights. Let's look at the areas where we are really 
hurting ourselves, and then it is, as Dr. Dessler said, 
virtually certain with any, what was the word, epistemological 
certainty, I think you said. Good words to close by. Thank you 
very much.
    [Whereupon, at 1:12 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
    
    
    
                                 <all>
</pre></body></html>
